<html>
<title> - EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN FLINT, MICHIGAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







  EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN 
                            FLINT, MICHIGAN

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

                           Serial No. 114-148

                               __________

Printed for the use of the Committee on Oversight and Government Reform


                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-927 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
         William McGrath, Interior Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 3, 2016.................................     1

                               WITNESSES

The Hon. Dan Kildee, Representative from Michigan U.S. House of 
  Representatives
    Oral Statement...............................................     8
Mr. Joel Beauvais, Acting Deputy Assistant Administrator, Office 
  of Water, U.S. Environmental Protection Agency
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Keith Creagh, Director, Department of Environmental Quality, 
  State of Michigan
    Oral Statement...............................................    18
    Written Statement............................................    20
Mr. Marc Edwards, Charles P. Lundsford Professor of Environmental 
  and Water Resources Engineering Virginia Polytechnic Institute 
  and State University
    Oral Statement...............................................    27
    Written Statement............................................    28
Ms. LeeAnne Walters, Resident of Flint, Michigan
    Oral Statement...............................................   130
    Written Statement............................................   132

                                APPENDIX

2015-06-24 Mr. Miguel A. Del Toral EPA Memo submitted by Mr. 
  Chaffetz.......................................................   186
2015-04-27 Mr. Miguel Del Toral to Thomas Poy Email submitted by 
  Mr. Chaffetz...................................................   195
2015-07-01 Ms. Susan Hedman EPA to Mr. Dayne Walling, City of 
  Flint, Email submitted by Mr. Chaffetz.........................   196
2016-02-03 Democratic Members to Mr. Chaffetz Requesting Governor 
  Snyder as Witness submitted by Mr. Cummings....................   197
The Flint Water Crisis: Myth vs. Fact............................   201

 
  EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN 
                            FLINT, MICHIGAN

                              ----------                              


                      Wednesday, February 3, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:57 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Lummis, Meadows, DeSantis, 
Mulvaney, Blum, Hice, Russell, Carter, Grothman, Palmer, 
Cummings, Maloney, Norton, Clay, Lynch, Cooper, Connolly, 
Cartwright, Duckworth, Kelly, Lawrence, Lieu, Watson Coleman, 
Plaskett, DeSaulnier, Boyle, Welch, and Lujan Grisham.
    Also Present: Representatives Griffith, Conyers, and 
Jackson Lee.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    The chairman is responsible under the rules of the House 
and the rules of the committee to maintain order and preserve 
decorum in the committee room. We appreciate your participation 
here today, but I would remind everybody that this is a 
congressional hearing and there is a certain decorum that we 
would appreciate everybody's participation in. I believe there 
are some people in the overflow room and whatnot, but we're 
glad to do this and have everybody here today.
    Prior to our opening statements, I want to address some 
people who probably should be here, that were invited to be 
here, and others that members on both sides wanted to be here. 
We have two panels today. I think this will be a good first 
step moving forward. Some people have wanted the Governor to be 
here. Some people have wanted the EPA Administrator to be here. 
We are going to have this hearing today, we have documents that 
will be provided by the EPA and others, and we will move 
forward from there.
    Let me address a few people that were anticipated to be 
here.
    Miguel Del Toral is the program manager for Region 5, Water 
Division, at the EPA. This, by all appearances, at least what 
I've seen so far, is a good person who is doing good work and 
made the right moves at the right time.
    Ms. LeeAnne Walters, who we're going to hear testimony on 
our second panel from, contacted the EPA in February of 2015--
now, keep the timeline in place here--February of 2015. Mr. Del 
Toral was very responsive and came to her house and tested the 
water in that same month.
    He was sent an invitation to appear as a witness before the 
committee; we did that last week. But in further discussions 
with the EPA and given his excessive and appropriate 
responsiveness to the committee, we have come to understand 
he's very active in the cleanup efforts as we speak. We 
therefore have excused him today and communicated to the EPA, 
after good discussions with the EPA, that they would provide 
all of his emails by the end of this week. We think that is a 
good and productive step forward. We did not compel or push to 
have Mr. Del Toral come before us today. And in consultation 
with the Democrats, I think this is the right move.
    Susan Hedman is the former Region 5 administrator for the 
EPA. She is no stranger to the committee. July of 2015, we held 
a hearing about mismanagement and retaliation at the EPA in 
Region 5, which is based in Chicago. This has been a problem 
for the committee, her actions in management. Again, she is the 
former EPA administrator for Region 5.
    Now, I have a few documents that I'd like to enter into the 
record.
    So I would ask unanimous consent to enter a June 24, 2015, 
email, memo, from Miguel Del Toral to Thomas Poy, who's the 
chief of the drinking water branch. Part of this email says, 
``Recent drinking water sample results indicate the presence of 
high lead results in the drinking water.''
    Without objection, that will be entered into the record.
    Chairman Chaffetz. I also have an April 27 email from 
Miguel Del Toral to Thomas Poy. ``Flint has not been operating 
in a corrosive control treatment, which is very concerning 
given the likelihood of lead service lines in the city.''
    Without objection, I'll enter that into the record.
    Chairman Chaffetz. We have another email here that is dated 
July 1 from Susan Hedman to Dayne Walling, who was the mayor of 
Flint. ``The preliminary draft report should not have been 
released outside of the agency.''
    Without objection, we'll enter that into the record.
    Chairman Chaffetz. And another one from Susan Hedman to 
Dayne Walling: ``I'm not inclined for my staff to have any 
further communication with the ACLU representative. We need to 
focus on finalizing the report. In the meantime, however, I 
have no objection to the city letting him know that the report 
he was given was a preliminary draft and that he would be 
premature to draw any conclusions based on that draft.''
    Chairman Chaffetz. Again, this is July. You'll see that 
this has been redacted, the top part. The EPA has agreed that 
by the end of the week we would get these nonredacted versions 
of these emails.
    Without objection, we'll enter these four documents into 
the record.
    The committee requested a transcribed interview with Ms. 
Hedman in a letter sent to the EPA last week. Shortly after the 
extent of the crisis in Flint became public, Ms. Hedman 
resigned her position late in January. Her resignation became 
effective on Monday. The EPA has agreed to provide all of Ms. 
Hedman's emails, again, by the end of the week.
    Today--this one right here--we are issuing a subpoena for 
Susan Hedman to come up here before the committee and 
participate in a deposition. This will happen later this month.
    Darnell Earley, the former emergency manager for the city 
of Flint--he is the former emergency manager for Flint, 
Michigan. He was appointed to the position in 2013, and he was 
tasked with overseeing Flint's finances. Mr. Earley left his 
position in January of 2015.
    The Flint city council voted seven to one to make the 
transition from Detroit city water. The committee sent Mr.--
he's vital to understanding what happened and how these 
decisions were made.
    The committee sent Mr. Earley an invite letter last week. 
He knew that this was happening, and he knew he was invited to 
appear as a witness before the committee. Most of the people 
that appear before the committee, we do not need to compel them 
to attend. Participation, though, before this committee is not 
optional. When you get invited to come to the Oversight and 
Government Reform Committee, you are going to show up.
    We were told at, I believe, 7:50 p.m. on Monday night that 
he would not attend. On Tuesday, I issued a subpoena. Normally, 
these are done electronically with the counsel of record. His 
attorney refused service. We're calling on the U.S. Marshals to 
hunt him down and give him that subpoena.
    [Applause.]
    Chairman Chaffetz. Today, we issued a new subpoena. He will 
appear, and he will be here to do a deposition later this 
month. This subpoena will also be issued today, but we're going 
to need the help of the United States Marshals.
    I forgot to issue one other document. I'd ask unanimous 
consent to enter into the record--this is from Susan Hedman. 
This is a December 10, 2015, Natural Resources Defense Council 
petition back in October to get the EPA to do its job. Again, 
further delaying it. Let the members and the public look at 
this. But I ask unanimous consent to enter that into the 
record.
    Chairman Chaffetz. So, with that business in mind, before 
we get to the opening statements, I don't know if Mr. Cummings 
has any business or things that he wants to enter into the 
record.
    Mr. Cummings. No. No. I'm good.
    Chairman Chaffetz. With that, let us now transition. I 
appreciate the indulgence of the committee, but I think it's 
important the members understand where we are with subpoenas, 
with people's participation, and the intent of the committee to 
participate in these depositions.
    So now let's go to the opening statements. I would like to 
yield to the gentleman from Michigan, Mr. Walberg, for his 
comments.
    Mr. Walberg. Thank you, Mr. Chairman. And I thank you for 
taking this issue, this hearing and subsequent, very seriously. 
It is a serious issue.
    I recognize my good friend and colleague, Representative 
Kildee, the gentleman from Flint, the efforts that you've 
carried on, it's important. For Michigan it's important, but I 
would mention to my other colleagues, this is important for the 
United States. We have infrastructure needs, we have challenges 
with government at all levels all around this country, and we 
need to take it seriously. And so to Mr. Kildee, thank you for 
raising this.
    The Flint water crisis is indeed a human tragedy. It's not 
a natural disaster. It's a human disaster brought on by 
failures of humans but, I think, as well, brought on by 
failures of government at all levels. And we are here as a 
Government Oversight and Reform Committee to do the very thing 
that's necessary, to do oversight and then reform, to make it 
right where we can.
    Sadly, as I think as a grandfather and father, I wouldn't 
want my kids or my grandkids to have to drink this type of 
water. It's not----
    [Applause.]
    Mr. Walberg. It's not the thing we should expect, in 
America especially. But it has happened. And now the issue is, 
how do we make it right? How do we move forward?
    The lives of young children will be impacted for years to 
come, sadly. The dreams and aspirations coming from their 
parents will be impacted. We're here today to find answers, to 
get answers and help for the people of Flint but also for the 
people of the United States. We must get all the facts and get 
them right. There must be accountability where accountability 
needs to be taken. These children and families deserve nothing 
less.
    Mr. Chairman, I want to be clear: Again, this was a failure 
of government--key failure of government. And just as this 
crisis was a failure at every level, the effort to make things 
right must be a cooperative effort at every level, as well.
    The safety and well-being of our citizens is not a 
Republican or a Democrat or an Independent issue. It's a human 
issue, it's an American issue that affects Americans' lives. 
Politicizing this tragedy won't solve the problem, and it won't 
help the children of Flint.
    I make my commitment, Mr. Chairman--I make it to you, Mr. 
Kildee, as well--that this will be an effort that's bipartisan. 
I think you've seen our delegation step up, even this morning 
with the introduction of legislation to assist in this deal.
    I hope today's hearing will begin to shine the light on how 
this tragedy happened, who was involved, how we can make it 
right, and how we can never let it happen again so we can move 
forward together to fix and ensure that this American ideal 
that allows people to be free, safe, secure, and upwardly 
mobile happens to a great degree by principles developed in 
this hearing.
    Mr. Chairman, I thank you, and I yield back.
    Chairman Chaffetz. Thank you.
    I would remind the audience, displays of approval or 
disapproval, clapping--not necessarily appropriate for this 
committee hearing. So if you would please refrain from applause 
and whatnot, we would all appreciate it.
    This is the United States of America. This isn't supposed 
to happen here. We're not some third-world country where we get 
100,000 people who get poisoned--poisoned--for long periods of 
time. I can't even begin to express--I don't know how my wife 
and I would deal with our kids being poisoned for so long. I 
physically cannot even understand or comprehend what the 
parents and the loved ones and the individuals who have been 
drinking that water have been going through.
    And I'm disappointed in the response at the local level, at 
the State level, and at the Federal level. There's a failing at 
every level. It's absolutely, fundamentally, and totally wrong. 
The public has a right to be outraged. ``Outraged'' doesn't 
even begin to cover it. So I don't know how we fix this, but it 
has to be fixed.
    We're going to hear from one of our witnesses today, and I 
chatted with her for a moment before, Ms. Walters.
    And I appreciate your coming before the committee and doing 
what you did early on in the process. I really do.
    And I look forward to hearing from our witnesses. We can't 
let this happen. It should have never happened in the first 
place.
    I'm going to yield back, and let's now turn the time to our 
ranking member, Mr. Cummings, for his opening comments.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, the--Mr. Kildee, I really appreciate you and 
Mrs. Lawrence for all of your efforts, for requesting this 
hearing and making it happen.
    And, Mr. Chairman, I want to yield 3 minutes to my 
distinguished colleague, Mrs. Lawrence from Michigan, for her 
opening.
    Mrs. Lawrence. Thank you, Mr. Chair, and to Ranking Member 
Cummings. I want to personally thank you for holding this 
hearing.
    In my letter to the chairman on January the 12th of this 
year, I asked this hearing examine the actions of key decision-
makers involved in the development of this drinking water 
contamination crisis. I never thought this could happen in 
America in this day and age in our great country and our great 
home of Michigan, where we're surrounded by fresh water and the 
Great Lakes.
    Every American has the right to three basic needs from 
their government: clean air to breathe, safe food to eat, and 
air that they can breathe that will not harm their bodies. We 
in government have failed them in providing these basic needs. 
We've also failed their trust.
    I'm pleased that Ms. Walters is here, because she puts a 
face on this tragedy. She, like so many mothers and residents 
of Flint, deserve to be heard. They're putting their trust in 
the government to fully investigate the wrongs that this city 
and these citizens of America have suffered. And today we have 
a chance to start rebuilding that trust.
    I submit to you, Mr. Chairman, that while we're doing the 
right thing in holding this hearing--and I appreciate your 
swift reaction to my request for this hearing--it's difficult 
to correct the mistakes of the past unless we call the 
decision-makers in this manmade disaster and ask them what 
happened, why did it happen, and when did you know, and what 
did you do when you found out about it.
    I want to publicly renew my request for another hearing, 
and I'm so encouraged to hear that there will be. I strongly 
believe that Governor Rick Snyder, Dan Wyant, Mr. Earley, and 
other Michigan State officials directly related to this 
devastating event, before this body, they should come and they 
should answer the questions.
    Mr. Cummings. Hear, hear.
    Mrs. Lawrence. The people of Flint, to Congressman Kildee, 
I stand with you in this fight. I know that I've walked through 
Flint, met with so many people, and the heart and the courage 
that you're having during this crisis. I want you to know that 
I'm standing with you, I will fight for you, and, Mr. Kildee, I 
will be right there with you.
    My objective is that never again in America. We can fix 
this, but we have to have those who made the decisions come 
forward and give answers.
    And I yield back my time.
    Mr. Cummings. Mr. Chairman, we are the last line of 
defense. I do thank you for calling this hearing, because there 
are some chairmen that wouldn't have called it.
    Mrs. Lawrence. That's true.
    Mr. Cummings. And I mean that. They wouldn't have called 
it. But you did.
    And, finally, I want to say a special thank you to the many 
residents of Flint, Michigan, who traveled all the way here to 
Washington, D.C., to attend today's hearing. And to you, we 
thank you.
    And, Reverend Sharpton, I thank you for being here.
    I welcome you all, and I thank you so much.
    I believe that we have a moral obligation to conduct a 
comprehensive investigation of this crisis. And let's be 
abundantly clear: It is a crisis. We need to determine how 
children in the United States of America in the year of 2016 
have been exposed to drinking water poisoned with lead, and not 
by accident--by the actions of their own government.
    I ask every member of this committee to take a moment and 
imagine what your reaction would be if this happened in your 
district instead of Flint. Ask yourselves, would I tolerate it? 
Of course you wouldn't. You would demand answers. You would 
demand that we examine the actions of everyone. And when I say 
``everyone,'' I mean everyone. You would hear testimony from 
everyone involved, and you would obtain documents from everyone 
involved.
    The problem is that today we are missing the most critical 
witness of all, the Governor of the State of Michigan, Rick 
Snyder. He is not here.
    Governor Snyder was the driving force behind Michigan's 
emergency manager law, which he signed in 2011 and invoked to 
take over the city of Flint from its local elected leaders. The 
Governor handpicked appointees to run the city, and they 
decided to use water from the Flint River. He also led the 
Michigan Department of Environmental Quality, which failed to 
protect the people of Flint, according to the Governor's own 
task force charged with investigating this crisis.
    Obviously, Governor Snyder should have to answer for his 
decisions. We asked the chairman to invite him today, but he 
would not. We asked the chairman to give us a date in the 
future for a hearing with Governor Snyder, but he would not. We 
asked the chairman to send the same kind of document requests 
to Governor Snyder that he sent to the EPA, but he would not do 
that either.
    We want answers from everybody, from the EPA straight on 
down to the local officials. That's the way we get to the 
bottom of this crisis.
    The problem with this approach is that it undermines the 
credibility of Congress, our committee, and this investigation. 
That is totally unacceptable to the people of Flint. It should 
be totally unacceptable to the people of this Congress and 
totally unacceptable to the people of the United States of 
America.
    As I said before, we are the last line of defense. And, 
certainly, we want to hear from the EPA, I want to hear from 
the EPA. Based on what I've seen, the EPA officials should have 
moved much more aggressively after they detected the heightened 
levels of lead. But States are the primary enforcement agencies 
for the Safe Drinking Water Act, not the EPA. The chairman 
argues that we should let the State continue its own 
investigation, but I disagree. The State has failed the people 
of Flint. Now it's up to us, all of us.
    And let me be clear: If we act selectively for political 
reasons, then we become a part of the problem. The information 
has been brought to us, and we now have a duty to investigate 
all aspects of the crisis. We simply do not have the right to 
remain silent. We do not have the right not to act. Government 
broke it; government must fix it.
    And so, today, every Democrat on the committee has joined 
together to sign this letter to the chairman. It invokes our 
right under the House rules to demand a hearing with witnesses 
of our choosing. In this letter, we officially request 
testimony from Governor Snyder and the three key emergency 
managers that he appointed to govern Flint: Edward Kurtz, Jerry 
Ambrose, and Darnell Earley.
    I ask that our letter be inserted into the official hearing 
record, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. I ask that it be inserted into the official 
hearing record.
    And our ultimate goal must be to serve the interests of the 
children and the families of Flint. And so we do not know the 
full extent of the damage that was caused, but we know it is 
grave. Today, the committee received a letter from the American 
Academy of Pediatrics. The letter warned that thousands of 
children under the age of 6 have now been potentially exposed 
to lead through the Flint drinking water.
    The letter says this: ``As you know, the city of Flint has 
long been an impoverished community beset by a host of economic 
and infrastructure hardships. This adversity coupled with 
widespread lead exposure means that Flint's children will 
require significant help in coping with the impact of lead on 
their physical and behavioral health and development, their 
schooling, and much more,'' end of quote.
    As I close, Mr. Chairman, it is our job here on this 
committee and in this Congress to make sure this help is 
provided to these kids--but, Mr. Chairman, not only to the 
kids, but to the adults and every citizen of Flint and to 
ensure that they are not forgotten after these hearings end.
    And that is why I say this is not a political issue, this 
is a moral issue. We have to investigate what happened at all 
levels, including the State, and then we have to turn to 
accountability and reform.
    Last but not least, Mr. Chairman, there's a fellow who had 
a song that I used to love. He never had any hits in my 
district, but he sang a song--and his name was Cat Stevens. And 
Cat Stevens said, ``Oh very young, what will you bring us this 
time? You're only dancing on this earth for a short time. Oh 
very young, what will you leave us this time?''
    And I've often said that our children are the living 
messages we send to a future we will never see. The question 
is: What will they leave us, and how will we send them into 
that future? Will we send them strong? Will we send them 
hopeful? Will we rob them of their destiny? Will we rob them of 
their dreams? No, we will not do that.
    And I am proud of this committee for holding this hearing. 
We will get to the bottom of this. And, as Mr. Walberg said, we 
will do it in a bipartisan way.
    Thank you, Mr. Chairman. And I yield back.
    Chairman Chaffetz. I thank the gentleman.
    You should have applauded that, but I appreciate you 
listening to me.
    [Applause.]
    Mr. Cummings. Thank you.
    Chairman Chaffetz. All right. So we're good now. All right. 
Thank you.
    And that's what I love about Mr. Cummings and this 
committee. We have passionate people on both sides who care 
deeply about their country. And nobody--nobody--wants to see 
this thing happen. And we're going to have a good hearing 
today.
    The chair will hold the record open for 5 legislative days 
for any member who would like to submit a written statement.
    The chair also notes the presence today of the former 
chairman of this committee, Mr. Conyers of Michigan. We would 
ask unanimous consent to allow him to participate in today's 
hearing. Without objection, so ordered.
    We're also pleased to note the presence of Congressman 
Morgan Griffith of Virginia. We appreciate his joining us 
today. I ask unanimous consent that he, too, be allowed to join 
this panel. Without objection, so ordered.
    We will have two panels today. It has been the practice of 
the House and common courtesy to our colleagues in a situation 
like this to allow a Member who represents this district--Mr. 
Dan Kildee, who represents the Fifth District of Michigan, 
which includes the city of Flint, we have asked him to 
participate today to give his perspective. And we'll now 
recognize him for 5 minutes.
    Mr. Kildee.

                       WITNESS STATEMENTS

              STATEMENT OF THE HON. DANIEL KILDEE

    Mr. Kildee. First of all, thank you, Mr. Chairman, for 
holding this hearing and for allowing me to make some comments 
on what's happening in my hometown.
    And to the ranking member, Mr. Cummings, thank you for your 
support and your guidance and your allegiance to the people of 
the city of Flint.
    And to my colleague, Congresswoman Lawrence, with whom I've 
worked on this from the very beginning, I just want to say 
thanks for having my back and the back of the people of the 
city of Flint.
    I'll try to be brief. I know we have really the heroes of 
this story, some of them, on the panel that I'm anxious to 
listen to.
    But Flint's my hometown. I grew up in Flint. I raised my 
children in Flint. When we leave here at the end of every week, 
I fly home to Flint. I'm a son of this town. And so it breaks 
my heart to see what's happening.
    And it breaks my heart not just because of what has been 
inflicted upon the people of Flint but because it was an 
entirely avoidable set of circumstances. Better action by 
people in government could have protected the people of Flint, 
and those players failed.
    And I appreciate the outrage that Members of Congress, my 
colleagues, have expressed. And that outrage has come from both 
sides of the aisle. But my hope is that that outrage translates 
into something more than just sharing the misery of the people 
of Flint or sympathy for the people of Flint, but we need to 
provide help for the folks in Flint.
    Flint's a strong community. We have been through really 
tough times, and we will get through this too. But we have to 
have resources from the people who did this to Flint in order 
to create a path forward for the people and especially for the 
children of my hometown.
    Right now, the water is still not yet safe to drink in 
Flint. High levels of lead continue to show up in testing.
    The reason I'm here and the reason I wanted to make some 
comments is that I want to make sure that, as this committee 
pursues its responsibility, that we focus on the facts of this 
case and make sure that those guide the conclusions that we 
make.
    It was mentioned that in Flint we have had an emergency 
manager. That's not just a small anecdote here. Emergency 
managers in Michigan have absolute authority over local 
governments. So when we talk about failure of government at 
every level, let's just be clear about one point, one very 
important point: Every decision that was made for the city of 
Flint that relates to this crisis was made by a State-appointed 
emergency manager.
    So when referring to ``local decisions''--there are some 
who are trying to obfuscate responsibility for this crisis by 
saying these were local decisions--they were local decisions 
made by a State emergency manager. The mayor of the city has no 
authority. The city council in Flint, zero authority to make 
any decisions. That's an important point.
    Making matters worse, the reason an emergency manager was 
required in Flint in the first place is largely because of, 
obviously, big factors over time--the loss of our manufacturing 
base--but, at the same time, the State of Michigan cut an 
essential element of city resources. It cut the money that goes 
to support cities from its budget.
    The city has a $50 million general fund, and, over the last 
decade, $50 million of direct revenue sharing from the State to 
the city was eliminated, throwing the city into a financial 
crisis, precipitating the appointment by the State of an 
emergency manager to take over the city. The State that helped 
bankrupt the city is now sent in to try to take it over to get 
it right.
    It was the State emergency manager that made the decision 
to switch the city of Flint to the Flint River water source. 
And it was the emergency manager that had 100-percent control 
of all departments of city government, including the department 
responsible for making sure that the water was properly 
treated, and that emergency manager failed.
    Let me just show you one exhibit just so that you have an 
understanding. These are facts. This is the order by the 
emergency manager to switch to the Flint River.
    And, again, there's a public relations campaign that's 
underway right now to try to say these were local decisions or, 
no, it was actually the EPA, to deflect responsibility from the 
State of Michigan. This was a decision by an emergency manager 
in Flint to go to the Flint River water source. It was a 
critical decision that was made that precipitated this entire 
crisis.
    So, after that switch was made, citizens began to speak up. 
In fact, one of them, LeeAnne Walters, is here and will be on 
the next panel. She's one of the heroes of this story. And let 
me be clear: The heroes in the story of Flint are those who 
brought it to light. And they're not public officials. They're 
citizens, they're activists, they're people who would not be 
quiet. And LeeAnne Walters is one of them, and you will hear 
from her.
    She went to the DEQ, ultimately had to go to the EPA, as 
the chairman had indicated, to raise this question. And what 
was the response of the Michigan Department of Environmental 
Quality when these issues were raised? To try to discredit all 
the voices that were calling this problem to their attention, 
whether it was Dr. Mark Edwards from Virginia Tech, who you 
will hear from--the State of Michigan tried to discredit his 
research, a guy who'd spent really his career on clean water. 
Tried to discredit the citizens as if they were just unhappy 
citizens. They had lead in their water that was going to their 
children.
    Again, there's an effort to try to create some false 
equivalency of responsibility. I am critical of the EPA in this 
case, don't get me wrong. In fact, I have legislation that I'm 
introducing that hopefully will be bipartisan, taken up soon, 
that would require much greater transparency by the EPA. I wish 
that as soon as the EPA discovered that there were problems 
with the water in Flint that they would shout it from the 
mountain top that there's a problem in Flint. Instead, they 
kept insisting that the Michigan Department of Environmental 
Quality do its job, which it failed to do.
    One of the questions that has come up is why didn't the EPA 
insist that the Michigan Department of Environmental Quality 
require the corrosion control to be used in Flint. Well, 
there's a document that I have in my hand, which I'm submitting 
to you. It's a memo from the Michigan Department of 
Environmental Quality to the EPA saying that--and this is dated 
February 27 of 2015, almost a year ago--indicating that Flint 
has an optimized corrosion control program. They did not.
    So to hold the EPA accountable, I want to hold them 
accountable for transparency, but let's make sure we get the 
facts right. It was the Michigan Department of Environmental 
Quality telling the EPA that they had this thing under control, 
that they were using corrosion control in Flint, when they were 
not.
    I would have preferred the EPA had let me know, had let the 
community know that they had this data and let us force the DEQ 
to do its job. They didn't, and that's their failure. But it is 
not their failure to not insist that a corrosion control 
process be implemented. They continued to ask and they were 
told it was under control when it was not.
    So, when this all became public, another one of the heroes 
of this story, Dr. Mona Hanna-Attisha--she is a pediatrician in 
Flint--she began to look at blood levels in children, and it 
showed elevated blood lead levels in children in Flint. She 
released her data, and what was the response of the State of 
Michigan? To try to discredit this pediatrician, who has 
devoted her entire life to the health of children, just trying 
to do her job for the kids of Flint.
    There is a continuous effort to try to minimize this 
problem as if it did not exist.
    There's a lot of questions about who knew what and when. 
And that's really an important part of this. We have an email 
from the chief of staff of the Governor's office back in July 
of 2015 raising this question and saying that he thought that 
basically the people in Flint were getting blown off by the 
State. So they knew about this back then and failed to act.
    So let me just conclude by saying a couple things.
    I'm really concerned that we get to the facts on this, not 
just because I want to know who should be fired, who should be 
subpoenaed, who should be blamed, who should be prosecuted. 
Justice comes in those forms for sure, but justice for the 
people of Flint comes by making it right for the people of 
Flint. And the only way we can make it right is to make sure we 
know who did this.
    And for anybody who has been paying attention to this case 
back home in Michigan, there's really no doubt about who's 
responsible. The State of Michigan was responsible, as the 
ranking member said, has primacy for the enforcement of the 
lead and copper rule. The State of Michigan was running the 
city of Flint itself at the time that these decisions were 
made. And the State of Michigan denied to the citizens of the 
State and to the citizens of Flint that this was a problem.
    At one point, a State official, after the lead data had 
already been made known to them, told people in Flint that they 
should just relax. Nine thousand children in Flint with water 
with elevated lead levels going into their bodies. Relax?
    Yes, this is a failure of government, but this false 
equivalency that somehow local officials, who had no power, and 
the EPA, who I agree should have done more, should be held 
accountable for this misses the point. This was a State 
failure.
    And you'll hear from folks today. And the current head of 
the Michigan Department of Environmental Quality, whom I know, 
is a good man. He was not in the position at the time these 
decisions were made and can't really testify to what happened 
then in real time. We were there. LeeAnne Walters was there. 
Mark Edwards was there. Dr. Mona was there. The people of Flint 
knew what was happening.
    So the State, to my point of view, my perspective, has a 
moral responsibility not to just apologize. The Governor has 
already apologized. In his State of the State, he said he 
acknowledged responsibility. But the way I was raised is that 
when you do something wrong to someone, something that has a 
consequence, you do apologize for sure, but also, if you have 
it in your power to make it right for that person, to make it 
right for those people, you have to stand up and do that. So 
far, we haven't seen that.
    We need the pipes fixed in Flint. In fact, the Governor 
should write a check tomorrow for the $60 million that the 
mayor of Flint has asked for to replace the lead service lines. 
He's sitting on a billion-dollar surplus. He should ask for 
that money tomorrow and then should commit to not just fix the 
infrastructure but to make it right for these kids, give them 
the kind of help that any child with a developmental hurdle to 
overcome should get--early childhood education, good nutrition, 
lots of support, behavioral support, not just now, not just 
next year, but for the entire trajectory of their developmental 
cycle.
    This is a tragedy. It can not be fixed. But those who did 
this to Flint can stand up and make it right. And I would ask 
this committee to do everything within your power to find the 
facts. And if you do and if you let those facts lead you to the 
conclusion that they should, you will find that the State of 
Michigan bears the responsibility to the greatest extent. And 
they should be held to account, but they also should be held to 
make it right.
    With that, Mr. Chairman, I appreciate the opportunity to 
speak, and I yield back. Thank you.
    Chairman Chaffetz. Thank you for your participation and 
your passion. All those documents that you referred to will be 
entered into the record.
    Chairman Chaffetz. What we will do now is recess for 
approximately 4 minutes, so don't go anywhere. But the clerks 
need to reset for panel number two, and we will go from there. 
The committee stands in recess.
    [recess.]
    Chairman Chaffetz. The committee will come to order.
    The committee will now recognize the second panel. I'm 
pleased to welcome Mr. Joel Beauvais, the Acting Deputy 
Assistant Administrator of the Office of Water at the United 
States Environmental Protection Agency; Mr. Keith Creagh is the 
director of the Department of Environmental Quality for the 
State of Michigan; Mr. Marc Edwards, the Charles P. Lundsford 
Professor of Environmental and Water Resources Engineering at 
the Virginia Polytechnic Institute and State University; and 
Ms. LeeAnne Walters, a resident and parent from Flint, 
Michigan.
    We welcome you all. We thank you for your participation 
today.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. If you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you will 
give will be the truth, the whole truth, and nothing but the 
truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for further discussion and 
questioning by members, we would appreciate your limiting your 
opening comments to no more than 5 minutes. And your entire 
written statement will be made part of the record.
    Mr. Beauvais, you are now recognized for 5 minutes.

                   STATEMENT OF JOEL BEAUVAIS

    Mr. Beauvais. Thank you. Good morning, Mr. Chairman, 
Ranking Member Cummings, distinguished members of the 
committee. My name is Joel Beauvais, and I currently serve as 
Deputy Assistant Administrator of EPA's Office of Water. Thank 
you for the opportunity to testify about EPA's response to the 
drinking water crisis in Flint, Michigan.
    I spent the day yesterday in Flint with Administrator 
McCarthy and members of EPA's response team on the ground. We 
met with Mayor Weaver, Dr. Hanna-Attisha, and other community 
leaders and members.
    The situation in Flint is critical and demands urgent and 
sustained action at all levels of government to protect the 
public and help the city recover. EPA is intensely engaged in 
work to restore safe drinking water in Flint in coordination 
with the broader Federal response effort.
    What happened in Flint was avoidable and should never have 
happened.
    Under the Safe Drinking Water Act, Congress directed EPA to 
set national standards but assigned primary responsibility to 
the States to implement and enforce the law. EPA maintains 
Federal oversight of State programs. That system, while 
imperfect, has achieved major gains in drinking water safety 
nationwide.
    The situation that gave rise to the current crisis in Flint 
of a large public water system switching from purchasing 
treated water to using an untreated water source is highly 
unusual. Under Federal regulations, the city was required to 
obtain prior approval for the switch from the Michigan 
Department of Environmental Quality. MDEQ advised the city of 
Flint that corrosion control treatment was not necessary. 
Failure to implement such treatment resulted in leaching of 
lead into the city's drinking water. EPA regional staff urged 
MDEQ to address the lack of corrosion control but encountered 
resistance.
    Delays in taking the actions needed to treat Flint's 
drinking water properly and in informing the public of ongoing 
health risks have had serious consequences. All parties 
involved need to take steps to understand how this happened and 
to ensure that it never happens again.
    Several reviews and investigations, including a U.S. 
Department of Justice investigation, are underway in Michigan. 
Administrator McCarthy has asked EPA's inspector general to 
undertake an independent review of EPA's response and its 
oversight of MDEQ. EPA looks forward to receiving and acting 
promptly upon the results of that review.
    Administrator McCarthy also issued an agency-wide elevation 
policy directing EPA's leadership to encourage prompt and 
decisive action to address critical public health concerns. 
Further, we are committed to engaging with States, system 
operators, and other stakeholders to identify and address 
lessons from Flint and other potential drinking water risks.
    EPA is working hard to address the public health emergency 
in Flint. Since last October, our Flint Safe Drinking Water 
Task Force has provided expert technical assistance to the city 
and MDEQ on corrosion control treatment and proper lead 
testing. In November, EPA announced that we are conducting an 
audit of MDEQ's drinking water program to assess its 
performance and identify needed changes.
    And, on January 21, EPA issued an emergency order under the 
Safe Drinking Water Act directing the State of Michigan and 
MDEQ and the city of Flint to take actions necessary to ensure 
that corrosion control is re-optimized and that the city 
establishes the capacity to operate its drinking water system 
in compliance with the law.
    Following President Obama's emergency declaration in 
January, the administration has deployed a multi-agency 
response effort in Flint. EPA has established a significant 
presence on the ground, including scientists, water quality 
experts, response personnel, and community engagement 
coordinators.
    In addition to providing technical assistance through our 
task force, EPA has launched a multiprong drinking water 
sampling effort to assess and support ongoing work to restore 
Flint's system. We are sharing information with the public in a 
transparent and timely way and will continue to work with the 
city, the State, and the community to get Flint's system back 
on track.
    In addition to our work in Flint, EPA is committed to 
strengthening the lead and copper rule, which covers 
approximately 68,000 systems nationwide. We are working on 
revisions to the rule. Last December, we received extensive 
recommendations from our National Drinking Water Advisory 
Council and other concerned stakeholders. We will carefully 
consider this input and the national experience in implementing 
the rule, including the events in Flint, as we develop proposed 
improvements. In the nearer term, we will be working with 
States and other stakeholders to take near-term actions to 
strengthen implementation of the existing rule.
    Thank you for the opportunity to testify today. I welcome 
any questions.
    [prepared statement of Mr. Beauvais follows:]
    
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Chairman Chaffetz. Thank you.
    Mr. Creagh, you are now recognized for 5 minutes.

                   STATEMENT OF KEITH CREAGH

    Mr. Creagh. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and members of the Committee on Oversight Government 
Reform. Thank you for the opportunity to be here today to 
discuss the Flint water crisis.
    My name is Keith Creagh, and since January 4, 2016, I have 
served as the director of the Michigan Department of 
Environmental Quality.
    I want to start by apologizing to the residents of Flint. 
In retrospect, government at all levels should have done more. 
We must fully investigate what happened in order to make sure 
it will never happen again. In addition, and most urgently, we 
must fix the problem for the people of Flint.
    This is a complex issue due in part to multiple levels of 
government oversight. The city of Flint is responsible for 
daily operations of the water plant and the distribution 
system, including identifying sampling locations, collecting 
samples, and certifying that the samples meet the criteria of 
the lead and copper rule. The State of Michigan is responsible 
for ensuring compliance with the lead and copper rule and the 
Safe Drinking Water Act. The U.S. EPA sets national drinking 
water standards, provides oversight to make sure those 
standards are met, and audits the State programs.
    In Flint, the implementation of the Federal lead and copper 
rule was ineffective in protecting public health. When the 
first round of lead sampling came back at 6 parts per billion 
in January 2015, corrosion treatment was not implemented. 
Regardless of the testing schedule allowed by the EPA rule, in 
hindsight, when the lead levels began to rise, corrosion 
treatment should have been required by the Department of 
Environmental Quality.
    As the Michigan auditor general pointed out, the MDEQ's 
Office of Drinking Water and Municipal Assistance relied on 
technical compliance instead of assuring safe drinking water. 
It is noteworthy that the lead and copper rule would have 
allowed up to 24 months to begin these treatments. It has now 
become clear that the Federal lead and copper rule is outdated 
and inadequate to protect the public from exposure to lead, 
especially in communities with aging infrastructure, such as 
Flint.
    I am confident that the many reviews of this situation, 
from the U.S. Department of Justice, to the interagency team, 
to the Michigan attorney general, will address in depth the 
policy and decisionmaking corrections needed to ensure that 
government at all levels can provide safe, clean drinking water 
to citizens.
    While we could spend the whole morning trying to assign 
blame, I'd first like to acknowledge the unwavering advocacy of 
LeeAnne Walters, EPA's Miguel Del Toral, Dr. Mark Edwards, and 
Dr. Mona Hanna-Attisha in helping to bring this problem to 
light. And I would like to spend the final few minutes 
discussing the coordinated State response that has been 
undertaken to fix this problem.
    The State has been working hard to develop effective and 
responsive steps to address issues related to the drinking 
water in Flint. On October 7, Governor Rick Snyder announced a 
10-step plan to address the Flint water emergency. On January 
5th, the State Emergency Operations Center was activated. Since 
then, we have handed out approximately 100,000 water filters, 
234 cases of bottled water, 32,000 water testing sampling kits.
    I also wanted to highlight the State's five-prong sampling 
plan that addresses both the short- and long-term needs of 
Flint. This approach includes the following: access to water 
sampling for all residents. Although this is not a scientific 
sampling pool, initial results have shown lead levels in water 
with 93 percent of sampling of homes below the Federal action 
level of 15 parts per billion.
    Testing of additional schools, daycares, and nursing homes 
is underway. Assessment of food establishments through the 
Michigan Department of Agriculture and Rural Development is 
occurring. Home screening and additional followup for children 
with elevated lead levels in their blood are being coordinated 
by the Michigan Department of Health and Human Services. And 
identification of sample sites is occurring to allow for long-
term monitoring and testing of water in conjunction with the 
EPA and the city.
    The State will assert they will achieve these deliverables 
identified in the EPA order sometime January 21st. Since the 
issuance of the order, the State and the EPA have had 
productive and constructive conversations on a unified path 
forward. While we certainly appreciate the dialogue that has 
occurred, consultation with the State before the order was 
issued would have provided clarity to the many issues that the 
State was already underway in addressing. Indeed, it is 
puzzling that the order was issued so long after the State 
response began and without mentioning the steps that were 
already underway.
    To be successful, we, the State, need to have a high-
performing, trust-based partnership with the EPA, the city of 
Flint, and other agencies at the local and county levels. I 
appreciate the relationships that have been established between 
myself, Mayor Weaver, and interim EPA Regional Administrator 
Bob Kaplan through our weekly calls the meetings.
    In closing, we know the task ahead is important, as is the 
restoration of the public's trust. Governor Snyder is committed 
to providing the resources necessary to provide solutions. I 
look to our congressional and Federal partners to also provide 
leadership on Federal resources that can be leveraged to 
address the problems related to the Flint water crisis. We will 
not rest until this problem is solved and the people of Flint 
are assured they again have water that is safe for them and 
their families.
    I thank you again for the opportunity to come before you 
today, and I look forward to answering any questions you may 
have.
    [prepared statement of Mr. Creagh follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
     
    Chairman Chaffetz. Thank you, Mr. Creagh.
    Mr. Edwards, you're now recognized for 5 minutes.

                   STATEMENT OF MARC EDWARDS

    Mr. Edwards. Thank you.
    This is the third time, unfortunately, that I've testified 
before Congress about deficiencies in the EPA lead and copper 
rule. And I see my good friend Eleanor Holmes Norton up there, 
and I wish I didn't know you so well. Because when we met on 
this in 2004, we talked about the deficiencies at EPA, the 
loopholes in the regulation. And all of what we could have 
learned from Washington, D.C., was derailed. And, frankly, the 
only thing that we learned in Washington, D.C., was that these 
agencies, paid to protect us from lead in drinking water, can 
get away with anything.
    So I am really begging you to do what we didn't do the last 
two times I appeared before this committee, which is to fix the 
EPA lead and copper rule and to fix the U.S. EPA.
    The agencies involved in protecting children from lead in 
drinking water in this country, including U.S. Centers for 
Disease Control, the EPA, primacy agencies, and the water 
utilities, have proven themselves time and time again unworthy 
of the public trust. They cannot be trusted to fix this 
problem.
    They've repeatedly engaged in scientific misconduct. And in 
the written testimony I submitted to the committee, I outline 
over the last 10 years five examples of falsified reports from 
these agencies that have conclusions directly endangering 
children in this country, that have caused children to be lead-
poisoned, and they refuse to correct the scientific record, 
even in the case of an EPA report that the acknowledge has no 
data--no data. After 9 years I have tried to get this report 
corrected, they refuse to retract this report.
    Mr. Edwards. So their callous disregard for the most 
vulnerable amongst us is really played out most recently in 
Flint, Michigan. And residents there have been living a surreal 
experience. It's part ``1984"; part enemy of the people. And I 
am personally shamed that the profession I belong to, the 
drinking water industry in this country, has allowed this to 
occur.
    So, in closing, I really am just begging you, please, 
please, these agencies--do what these agencies have refused to 
do. Protect kids in this country from lead in drinking water, 
and let's make them live up to their noble mission and once 
again be worthy of the public trust.
    I yield my time to LeeAnne.
    [Prepared statement of Mr. Edwards follows:]
    
    
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       

    
    Chairman Chaffetz. The gentleman yields back.
    Ms. Walters, you are now recognized for 5 minutes.

                  STATEMENT OF LEEANNE WALTERS

    Ms. Walters. My home used to be a place of comfort and 
safety for my family. It used to be what a home should be, a 
place of peace and protection from the outside world. That was 
taken from us and not just from my family, but from every home 
and every citizen in Flint.
    Now my home is known as ground zero. The people in Flint 
now stand with the people in D.C., who suffered their own lead 
crisis a decade ago, because we now know the horror of poison 
running through our taps and the negligence of the agencies 
paid to protect us.
    In 2014, in a city with no democracy, forced under an 
emergency manager hand-picked by Governor Snyder, a decision 
was made to switch the water source without the proper testing 
and enforcement of regulation.
    The MDEQ claims they misinterpreted Federal law recording 
corrosion control. They were allowed to tell EPA they were 
following the law without any verifications. The citizens in 
Flint were assured for 18 months that the water was safe. My 
home was being tested because of the discoloration of my water 
and the health issues my family was experiencing. We fought the 
city and the State saying there was something wrong, and we 
were dismissed. I decided we need to get to the science if 
anyone was ever going to believe us. I started researching and 
educating myself about water.
    I had three tests done by the city of Flint, using extra 
steps that tend to minimize lead in water. Those numbers were 
104 parts per billion, 397 parts per billion, and 707 parts per 
billion. I contacted the EPA and started working with Miguel 
Del Toral and Jennifer Crooks at the EPA. Mr. Del Toral was 
very thorough and knowledgeable in assisting me. I told Mr. Del 
Toral I did not believe there was corrosion control in the 
water, provided him documentation about this fact. And he 
verified my findings, and he was furious.
    Mr. Del Toral questioned the MDEQ and at first they lied 
and then later admitted the truth. I figured out that Ms. 
Crooks was aiding the MDEQ with their lies, and Mr. Del Toral 
was the only one willing to address the problem. I requested a 
copy of Mr. Del Toral's report and I made it public because 
people had a right to know. With the report public, Susan 
Hedman, EPA, apologized to the mayor of Flint and to the MDEQ 
because of policy. No one but Mr. Del Toral was willing to do 
their job.
    Mr. Del Toral was told by the ethics attorney to forward 
all media requests, including those during his personal time. 
He was also advised not to talk about Flint or to anybody from 
Flint.
    In a meeting I had with MDEQ, Liane Shekter Smith bragged 
to me about how Mr. Del Toral had been handled, that his report 
was flawed, and that there would be no final report. This was 
the ultimate betrayal for the citizens. Susan Hedman cared more 
about policy than the welfare of an entire community while 
punishing and silencing the one person that was willing to help 
us.
    I started doing independent testing with Virginia Tech, and 
30 tests were done, tests that were performed in accordance 
with the LCR. My average was 2,500 parts per billion. My 
highest was 13,500 parts per billion. Hazardous waste is 5,000. 
Regardless of this information and the fact that my son had 
lead poisoning, the city and the MDEQ still continued to tell 
everyone the water was safe as the EPA sat by and watched in 
silence.
    Because the State and Federal Governments failed us, with 
the help of Virginia Tech, we conducted citizen-based 
samplings. We educated and distributed 300 samples equally 
throughout the city. We collected back 277 samples. All of this 
was done in a 3-week turnaround. Here are the facts: After the 
tragedy in D.C. from 2001 to 2006, where children were poisoned 
by lead in water, the EPA should have immediately closed the 
loopholes to protect all citizens. Had the EPA closed the 
loopholes, then it could have 100 percent prevented what just 
took place in Flint.
    EPA has failed to protect people by refusing to ban partial 
lead service line replacements. The EPA's LCR National Report 
from 2006 states that the lack of system response for lead 
exceedance is especially true to inform the public. It is done 
less than one-third of the time. From my research, I have found 
that this is not a Flint problem or a rare anomaly. This is a 
national problem. Only 10 States test accurately in according 
to the LCR; 21 States do not reveal their sampling 
instructions; and 19 States have testing similar to loopholes 
to the Michigan ones. There's no justifiable reason for testing 
with loopholes, except to hide lead. These loopholes that need 
to be eliminated are pre-flush, small-mouth bottles, and cap on 
stagnation.
    I spoke against the NDWAC recommendations that are now 
currently under advisement by the EPA to change the LCR. These 
recommendations will weaken an already broken system and I'm 
outraged that the EPA continues to allow this type of 
dishonesty with testing to continue nationally.
    The citizens in Flint are relying on each of you because we 
have no choice. We trust no one but Virginia Tech. There are 
people in Flint today still not being assisted during this 
crisis: illegal immigrants, disabled and shut-ins. Broken 
policies and procedures are smothering the outcry of an entire 
community suffering financially, physically, mentally, and 
emotionally. I urge you to help restore some of the trust lost 
and protect all of the citizens in the United States by never 
allowing this happen again. We need this to happen now, not 10 
years from now. Thank you.
    [Prepared statement of Ms. Walters follows:]
    
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Chaffetz. Thank you. Again, thank you for the 
testimony.
    We will now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel. You are a good panel to have in 
front of us to start this investigation here at this level.
    Mr. Beauvais, in his testimony, Director Creagh noted an 
email from the EPA to MDEQ in response to the release of Miguel 
Del Toral's June 24, 2015, memo stating--and this is the EPA 
email that I quote from--quote: ``I want to remind you that 
Miguel's report had DEQ cc'd, so if the legislature or whoever 
might say you are all cc'd, you can truthfully respond that it 
was EPA's request that support not be sent to the cc's.'' 
Consequently, you all never received the report from Miguel.
    Mr. Beauvais, who sent that email? And why would the EPA 
tell MDEQ that they never received a request--a report which 
identified the lack of corrosive controls in place?
    Mr. Beauvais. My understanding is that the email to which 
you are referring was from a staffer in Region 5 named Jennifer 
Crooks. I have seen the email. I do not know why that email was 
sent.
    Mr. Walberg. Has there been a check to see why the email 
was sent from anybody?
    Mr. Beauvais. We are looking into that. And the 
Administrator has asked the inspector general to undertake an 
evaluation and assessment and independent review of what 
happened here. And it's--we need to get to the bottom of that 
and all of the other facts here.
    Mr. Walberg. Was Miguel Del Toral punished for releasing 
this interim memo?
    Mr. Beauvais. I am not aware of any punishment of Mr. Del 
Toral. Mr. Del Toral is a valued member of EPA's team. He is a 
nationally recognized expert in this area.
    Mr. Walberg. Not listened to.
    Mr. Beauvais. Mr. Del Toral has spoken recently to the 
media. I believe that he has also briefed the staff of this 
committee, and I am not aware of any----
    Mr. Walberg. Mr. Edwards, do you believe that Mr. Del Toral 
was punished by the EPA?
    Mr. Edwards. Not in writing.
    Mr. Walberg. Microphone.
    Mr. Edwards. Not in writing, but the way EPA operates in 
general is that people who are causing trouble by doing their 
job are simply not allowed to do their job. They are silenced, 
as Mr. Del Toral was. He was told, as LeeAnne said, by the 
ethics officer at EPA not to speak to anyone from Flint or 
about Flint. He told me that himself before he was unable to 
talk to me anymore.
    Mr. Walberg. Mr. Edwards--or Dr. Edwards, do you believe 
EPA is aware of local municipalities that are not following the 
testing requirement under the lead and copper rule?
    Mr. Edwards. Yes, I think the EPA in general casts a blind 
eye on these municipalities who are not following----
    Mr. Walberg. Even beyond Flint.
    Mr. Edwards. Yes, absolutely.
    Mr. Walberg. A blind eye?
    Mr. Edwards. Well, for example, in Durham, North Carolina, 
in 2008, children were lead poisoned as a result of a sampling 
protocol where you remove the aerator the night before 
sampling, clean the lead out, so when you measure the lead the 
next day, the lead in water looks lower than it normally is. 
EPA wrote a memo that essentially banned that protocol. But 
they know, as we speak today, water utilities still use that 
protocol, even after it was banned and caused lead poisoning of 
children in Durham. It is extremely frustrating.
    Mr. Walberg. Their response, would you conclude, is because 
of a lack of clarity in the Federal regulations or lack of 
enforcement or both?
    Mr. Edwards. In a written letter I wrote to EPA Office of 
Water, I said point blank that the only thing I can conclude is 
that they don't care about children lead poisoned from drinking 
water.
    Mr. Walberg. Why do you think the EPA has this problem? I 
mean, that's a pretty strong statement, and I guess we will 
look for further testimony, but why does EPA have this problem?
    Mr. Edwards. You would have to ask them why they refused to 
do the job they are paid to do.
    Mr. Walberg. Do you believe they are violating the law?
    Mr. Edwards. I believe that they are not enforcing the law. 
They are not enforcing their own policies, and they have 
created this environment in which basically anything goes.
    Mr. Walberg. And this has manifested itself very clearly in 
Flint.
    Mr. Edwards. Yes, most obviously, in Flint. Due to the 
unique circumstances, the miracle of outsiders, in spite of the 
system, showing that this problem occurred--had it not been for 
people completely outside the system, those children in Flint 
would still be drinking that water to this day. That is a fact.
    Mr. Walberg. Having more questions, but seeing my time has 
expired, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I remind the committee that we had a hearing here in July 
about Region 5, about Susan Hedman. We had three whistleblowers 
saying that people were being retaliated against for bringing 
complaints before that region. And it's so frustrating that 
that was not dealt with when it was brought up. It should have 
never happened in the first place, and it obviously continued 
because she just retired on Monday.
    Mr. Cummings. Mr. Chairman.
    Chairman Chaffetz. Yes.
    Mr. Cummings. Very briefly, Mr. Chairman, back on that 
hearing of your regard in a bipartisan way, we made it clear 
that we would not tolerate retaliation. Nobody on these panels, 
either side, would tolerate that. And it's been our policy, and 
I think, you know, as we look at these depositions that the 
chairman is planning to do, we may want to look to make sure 
that we get to the bottom of that. I know the AG is looking at 
it. I know the FBI is looking at it, but, you know, perhaps we 
might want to consider that.
    Chairman Chaffetz. And I would concur and encourage people 
if they feel retaliated against for telling the truth and 
exposing the reality of what happened, come talk to us. Both 
sides of the aisle, there is no way we are going to stand for 
that. We are going to have your back, and we are going to make 
sure that the truth gets out there. You should not be 
retaliated. There are whistleblower protections in place for 
sharing information with Congress that's vital for us in doing 
our jobs.
    And, please, pass that--pass that word along.
    We will now recognize the gentlewoman from Michigan, Ms. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you.
    Mr. Creagh, on January 29, Ranking Member Cummings and 
myself sent to Governor Snyder a detailed document request. As 
of this morning, the committee has not received any response 
from the Governor. Since this request covers your agency, can 
you tell the committee what steps have been taken to collect 
these documents, and when will we get them?
    Mr. Creagh. I'm aware of the letter. I believe there's a 
February 11 date, and I'm aware that the Governor's Office is 
reviewing that document.
    Mrs. Lawrence. I have a question about this issue of 
primacy. Can you explain in the State of Michigan, what exactly 
is the role of the Michigan Department of Environmental 
Quality? Once advised by EPA, which did happen in this 
situation, what is the responsibility based on the State of 
Michigan's law?
    Mr. Creagh. So the State of Michigan has enacted corollary 
statutes that mirror the Safe Drinking Water Act that allow us 
to enforce laws in the State of--in Michigan. We have primacy 
for enforcing the lead and copper rule and the Safe Drinking 
Water Act. And as I said in my testimony, the U.S. EPA sets the 
standards, oversees the programming, and conducts yearly 
audits.
    Mrs. Lawrence. So with the law and your responsibility, you 
are now in the position, what failed in enacting the law? And 
can you explain to me why a response to EPA on the February 
26--advising the State of Michigan that there was lead or high 
levels of corrosion in the Flint water?
    Mr. Creagh. It's the question of the day. And that's what 
many of the auditors and reviews will have is, who made what 
decisions when? And that's when I said we need to have a 
thorough investigation. As I mentioned in my testimony, the 
city runs the plant. They certify that the samples are 
consistent with the lead and copper rule. We oversee that, and 
then we work with EPA on standards and conversations.
    Mrs. Lawrence. So are you saying the city is responsible 
for not responding because if I follow the information, it came 
from EPA directly to the Michigan Department of Environmental 
Quality advising you about the Flint water?
    Mr. Creagh. If I could, I would say it differently. We all 
share responsibility in the Flint water crisis, whether it's 
the city, the State, or the Federal Government. We all let the 
citizens of Flint down, and that's what the commitment is, is 
to make sure that we solve that problem. You heard Dr. Edwards 
talk about the lead and copper rule. The citizens of Flint 
should not have to worry about the lead and copper rule. They 
should have fresh, safe drinking water.
    Mrs. Lawrence. You are new in the position, and we have 
heard clearly there are some issues with EPA. What are you 
doing in the State of Michigan to respond to this? What are the 
improvements, and what are you doing?
    Mr. Creagh. Thank you for that question. So, first and 
foremost, as you know, there is EPA's Water Task Force. I have 
weekly calls with Bob Kaplan who is the interim regional 
administrator for the U.S. EPA. Our commitment is there is no 
difference of opinion on regulation, and/or implementation. I 
meet weekly with Mayor Weaver and the water treatment facility 
operator to make sure that we are, once again, in lockstep for 
any implementation.
    We have implemented the--and have conversations, I visited 
with Miguel a couple of times already since I have been there 
talking about the EPA Water Task Force to make sure that we get 
it right. It's a very complex issue to get it right.
    Mrs. Lawrence. I want to be clear when you say it's the 
question of the day, because when--this is the response: The 
State DEQ is perplexed by Edwards' results as it seems to be by 
the city's test result. This group specializes in looking for 
high-lead problems. And we keep saying it is the question of 
the day. Has anyone been held accountable?
    Mr. Creagh. Yes, there is accountability throughout the 
system. As you know, there's been some changes at the DEQ. 
There has been suspensions at the DEQ, and everyone deserves 
due process.
    Mrs. Lawrence. So my question is, if it's the question of 
the day, you are obviously holding some people accountable. You 
should know what happened. And it should move from being a 
question to actually documenting because how can you discipline 
someone or hold them accountable if you do not have clear 
information of failure of their job?
    Mr. Creagh. I appreciate that question, and we do have 
clear standards. We have clear accountabilities. We have a 
clear path forward. We are working in conjunction with both the 
city, the State, and the Federal Government to resolve this so 
it does not happen again.
    Mrs. Lawrence. I think I'm going to hear that a couple of 
times today.
    I want to say thank you to Ms. Walters, your being here 
today, your passion going above and beyond the amazing job that 
you have as a parent, and your civic commitment. I want to 
thank you. I saw you taking some breaths during your testimony 
because this is obviously more than just a testimony. This is 
your life, and these are your children. So I just want to thank 
you for being here.
    Ms. Walters. Thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    We will now recognize the gentleman from Michigan, Mr. 
Amash, for 5 minutes.
    Mr. Amash. Thank you, Mr. Chairman, and thank you to the 
panel. It's outrageous that this sort of government-made 
catastrophe would happen anywhere in the United States. And I 
agree with my Democratic colleagues that we need an 
independent, nonpartisan investigation. The State of Michigan 
needs to provide comprehensive assistance to the people of 
Flint. And the State has the resources. I can assure you of 
that as a former State legislator. The State spends $33 million 
on the Pure Michigan ad campaign yet has provided only $28 
million to make sure that the people of Flint have pure water. 
So the State has the resources. The State needs to make it 
right.
    I have never liked the emergency manager law. It takes 
power away from the people of the community. It's disappointing 
that former Emergency Manager Earley had his attorney tell us 
when he received the subpoena for his attendance here that it 
borders on nonsensical to accept that subpoena to come here. 
Now, what's nonsensical, what's disappointing is that one of 
the people who is probably most culpable for the situation 
won't take responsibility for it. And I think he needs to 
appear here, and I would like to have some more people here, 
and it's unfortunate that we, while this is an esteemed panel, 
that we only have the four of you.
    So my first question is for Mr. Creagh, and Ms. Lawrence 
touched on this. What role does the Michigan DEQ have in 
implementing and enforcing safe drinking water standards? I 
just want to get to the bottom of it. Is it the primary role?
    Mr. Creagh. Yes, we have a primary role to oversee 
compliance with the Safe Drinking Water Act, and lead and 
copper rule.
    Mr. Amash. What role does the Michigan DEQ have in the 
process of bringing a water treatment plant online? It's my 
understanding that the Flint treatment plant was offline for a 
long period of time.
    Mr. Creagh. Actually, the Flint treatment plant has a long 
history. It was a primary source, I believe, before 1967. I 
think it has been in existence since 1903. I think it has been 
a backup. I think it is tested on a quarterly basis to ensure 
it meets Safe Drinking Water standards, and so it has gone from 
a backup to a primary. Actually, State law does not require 
additional permits for that to occur in and of itself.
    Mr. Amash. So what role does the DEQ have, the Michigan 
DEQ, have in that process for bringing it back online?
    Mr. Creagh. They would apply to us to get permits for 
modifications to the plant.
    Mr. Amash. And when a city decides to change its water 
source, how involved is the Michigan DEQ?
    Mr. Creagh. I think it's been mentioned, it's highly 
unusual across this country to go from one water source to 
another. And so the rigor should have been more when the water 
source changed.
    Mr. Amash. My next question is for Professor Edwards. We 
know that not enough phosphates were added to the water to make 
it less corrosive. What's the cost of treating the water with 
the appropriate amount of phosphates?
    Mr. Edwards. When the switch was made, there was actually 
no phosphate added at all. There was no corrosion control. 
Federal law was not followed.
    Mr. Amash. No phosphates at all?
    Mr. Edwards. Nothing. Had they done the minimum allowable 
under the law, which would have been to continue the phosphate 
dosing, which would have been in Detroit water, it would have 
cost $80 to $100 a day.
    Mr. Amash. Do you know why, or why do you think no 
phosphates were added? Isn't that a normal step you take if you 
are running a facility?
    Mr. Edwards. It's the law. You have to have a corrosion 
control plan, and that's why we have the law. This disaster 
would not have occurred if the phosphate had been added. And 
that includes the, you know, the Legionella likely outbreak, 
the red water that you see, the leaks of the plumbing system. 
In general, corrosion control, for every dollar you spend on 
it, you save $10. But in Flint's situation, for every dollar 
they would have spent on it, they would have easily saved 
$1,000. So my only explanation is that it probably did start 
innocently in the chaos of the turnover, and someone simply 
forgot to follow the law.
    Mr. Amash. And not including the phosphates is a problem, 
regardless of the water source, whether it is the Flint River 
or some other water source?
    Mr. Edwards. Well, you don't have to use phosphate. There 
are alternative approaches that one can use, including pH and 
alkalinity adjustment. But the key point is, you have to have a 
plan, and you are supposed to be optimizing it to make sure 
that you are protecting your pipes; you are protecting your 
people.
    Mr. Amash. And if you started to send these phosphates or 
other chemicals through the water to fix the problem, how long 
would it take?
    Mr. Edwards. Well, it's quite likely that right now even 
after a few months of phosphate dosing that the coating has 
been largely restored and that if a federally approved lead and 
copper rule sampling was done today, there is a pretty good 
chance that Flint would pass. I can't say. But until they 
actually do that testing, we have to err on the side of caution 
and assume that the water is not safe to drink. Flint has never 
done a lead and copper rule testing according to Federal 
regulations, like many cities across the United States. And the 
reason is, they never did the first step that was required 
under the rule in 1997, which is to identify high-risk homes 
from which you have to sample. What's become clear in Flint is 
they have never followed that first step, and therefore, 
frankly, all of their prior sampling results are invalid.
    Mr. Amash. Thank you for your testimony. My time has 
expired.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize Ms. Norton from Washington, D.C.
    Ms. Norton. Thank you very much, Mr. Chairman.
    And I thank you for promptly convening this hearing.
    Ms. Walters--seems to be only one hero in this episode, and 
it turns out to be a citizen. So on behalf of those of us on 
this panel, and I'm sure the citizens of Flint, I can only 
thank you. In our case, it was The Washington Post, and I 
should indicate what the point of my questions are.
    This really should be a problem-solving exercise. Blame is 
pretty clear. The verdict is in. The responsibility of EPA 
going back to the crisis in the Nation's Capital, and now in 
Flint, and Heaven knows, in the State, I think has had even to 
be admitted. I want to alert my colleagues of the national 
implications of this hearing because if a high profile lead 
episode in the Nation's Capital didn't alert people in 2000, 
surely, this is the time for each of us to inquire of the 
appropriate authorities if they are engaging in some of the 
tests that we had just heard described here.
    In the District, there were late-term miscarriages and 
spontaneous abortions after an unusually high rate of lead was 
found in the water between 2000 and 2003. When a corrosion 
control substance was added to the water, miscarriages and 
spontaneous abortions reverted to the normal rate.
    Ours was somewhat different. We have heard here about pre-
flushing. Mr. Beauvais says, or at least I understand from the 
testimony, that there is a rule that says you can't pre-flush. 
But, of course, the EPA doesn't know if people are pre-flushing 
at all, and they were pre-flushing. And Flint and this is just 
to indicate what pre-flushing means, you are flushing away the 
lead. Then you test. Why? That is a deliberate, close to 
criminal act.
    Mr. Beauvais, is there monitoring of pre-flushing, just 
that one notion? I don't mean that you go into every 
jurisdiction. I mean the kind of scientific monitoring that 
lets you know whether pre-flushing is going on by the EPA?
    Mr. Beauvais. The EPA task force in Flint has provided 
clear guidance to the MDEQ.
    Ms. Norton. Do you monitor whether or not, at this moment, 
pre-flushing is going on in jurisdictions, for example, that my 
colleagues represent?
    Mr. Beauvais. Pre-stagnation flushing is a concern that Dr. 
Edwards and others have brought to our concern, and it's 
something that we are looking closely at right now and at our 
oversight activities across the country.
    Ms. Norton. So the answer is no. So watch out everybody. 
When you are told that there is no lead in your water, they 
could be pre-flushing because nobody is looking to see whether 
pre-flushing is going on.
    Mr. Creagh, you do concede fault, and you weren't there at 
the time, but then you go back to the lead and copper rule, and 
you talk about EPA and its urgency. The only official that has 
been cited here for understanding that there was a problem was 
Mr. Del Toral of the EPA. So I can understand that there's no 
consensus on the lead and copper rule. But let's look at the 
commonsense way that corrosion is controlled, I tell you, not 
only in the District of Columbia, but I'm sure all over the 
United States. You are not asserting, are you, Mr. Creagh, that 
you needed to somehow get a consensus--in your testimony, you 
used the word consensus--on the lead and copper rule before 
deciding to use corrosion control when you change sources of 
water?
    Mr. Beauvais. I am not.
    Ms. Norton. Could I ask you this? We know that this is a 
billion-dollar problem if you go to changing everybody's lead 
pipes. In the District, we had this terrible situation where 
people actually went to the trouble of changing the lead pipes 
in their own home, and it made the lead worse because unless 
the city deals with the lead pipes going from your home, then 
not only does that not cure the problem, it makes the problem 
worse. So watch out for changing the lead pipes. All over the 
United States of America, your pipes are full of lead. Neither 
the Federal Government nor your State--the Federal Government 
should have been pressing this, should have been giving money 
for this. You should have been adding money of your own to 
change pipes or to use--that is a problem in our ancient water 
system. So I want to know how to get a quick fix now. These 
people are not going to remove themselves from Flint. They 
can't sell their homes now. Nobody wants to come to Flint, an 
already troubled area.
    Let's look at, Mr. Creagh, let's look at corrosion control. 
That was the addition of a substance. That's how it's done in 
the United States. They are not yanking out every pipe. They 
are using this substance. Are you committed to using this 
substance? What is the cost of this substance, and how early 
can this chemical to control the lead to keep it from leaching 
into the water be inserted into the water supply? May I get a 
direct answer to that question?
    Mr. Creagh. Yes. That actually was--the additional 
phosphate was added on December 9, to increase the potential to 
phosphate those pipes. That's in progress and being done.
    Ms. Norton. Is the water now safe to drink?
    Mr. Creagh. We cannot guarantee at this point in time that 
the water is safe to drink, so, if you could, Mr. Chairman, 
could I----
    Chairman Chaffetz. Sure.
    Mr. Creagh.--elaborate just a little bit?
    Chairman Chaffetz. The gentlewoman's time is expired, but 
please answer the question.
    Mr. Creagh. Yes. So we've mapped the parcels in Flint that 
we know of. There's 56,000 parcels. We put them on a GIS 
database if you will, to Dr. Edwards' point. There's 
uncertainty as to where there is lead service lines. Out of 
30,000 known, there is purported to be 5,200 of those. So what 
we are doing is we are overlaying that information and offload 
the information when I was going door to door and knocking on 
doors and talking to individuals, those that would be willing 
to be part of a sample. But then putting three-person teams in 
those homes, a plumber, someone who can actually address how do 
you take a sample so you don't pre-flush, so it's stagnant, so 
it is a wide-mouth bottle so that you pick them up on a routine 
basis and record it so that we can do that, and we are working 
with the EPA task force to see what type of time interval makes 
sense before with you can make that declarative statement.
    Chairman Chaffetz. I thank the gentleman.
    We now recognize the gentleman from Florida, Mr. Mica, from 
for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    And it's good to follow the gentlelady from the District 
because I was here in 1995 when we took over the District, put 
in a control board. At that time, if you think Flint is bad, 
the District, they had hundreds of bodies of indigents that 
were stacked like cord they couldn't bury. The kids were 
getting from a vendor only chicken and rice that were in the 
District's care. There were 60,000 people employed by the 
District. We had a crack-smoking mayor. We had about half a 
billion dollar--running about a half a billion dollar deficit. 
You don't have the Federal Government in Flint to take that up. 
So Flint isn't being picked up.
    I remember when you had to boil the water. I remember what 
the gentlelady said: the water was not safe to drink in this 
building. They taped the water fountains up. They told people 
to boil the water. Now, in government, we have a fundamental 
responsibility, and that is, this glass of water, that's our 
responsibility to make sure that water is pure and drinkable. 
You know, just for members' information, we called the 
superintendent's office to see if this was safe. They would not 
release to me, a Member of Congress, the tests here in the 
District. And I would ask unanimous consent that the committee 
just ask the superintendent to give us the information from the 
last 15 or 20 years, because I think we have a right to know if 
it's safe here in the Nation's Capital.
    But I tell you, you are not being picked on alone. But when 
you look at this--and the District was taken over by a control 
board. There wasn't even a local though. Representative Kildee 
said there was not a local decision. Yeah, there was a 7-1 
vote, as I understand, to let this happen. There was really 
nothing wrong with that water from the Flint River, was there, 
Mr. Edwards, if it was properly treated?
    Mr. Edwards. If the minimum----
    Mr. Mica. And the water tested when it came out of the 
plant was fine. What happened was that for--the gentleman from 
Michigan said, for lack of $80 to $100 a day, that's what you 
said, which is about, let me do the math. It is about $30,000 a 
year, and it wasn't $50 million we heard cited being cut or 
something. For that much money, we poisoned the kids in Flint. 
Didn't we? That's what we did. And we have--and she was 
properly termed a citizen and a hero. She is a citizen hero. 
She stepped up, Ms. Walters, thank God that you stepped up, and 
you persisted.
    Look at the timeframe, though. They had the opportunity to 
act, to put the phosphate in to control the degradation of the 
pipes. That wasn't done. She alerted them, and that was back 
in--when did you do that in? What month?
    Ms. Walters. That was in March of 2015.
    Mr. Mica. In 2015, and it went on and on. And----
    Ms. Walters. Do you know why the phosphates were not added?
    Mr. Mica. Why?
    Ms. Walters. Because they did not have the equipment at the 
treatment plant to add the phosphates.
    Mr. Mica. Again, it's a simple solution that should have 
been placed--in place, and the State or the Federal Government, 
and you got blown off by the locals, right?
    Ms. Walters. Yes, sir.
    Mr. Mica. You got blown off by the State, right?
    Ms. Walters. Yes, sir.
    Mr. Mica. So you went to the Federal Government, and they 
failed you, right?
    Ms. Walters. Everybody but Mr. Del Toral, sir.
    Mr. Mica. Yes, exactly. And this is just unacceptable. We 
have a responsibility to these kids. Now, everybody has talked 
about blaming and accountability, and we should hold these 
people accountable. Now we have got the kids who have drunk 
this water and are bathed in this water. Every kid in that 
community should be tested. And then if there is residual 
results, don't you think that someone should be responsible? It 
should be the State government, the Federal Government, and the 
local government should be responsible to make certain those 
kids now and in the future are--well, first, we need to test 
them. Is that underway, Mr. Creagh?
    Mr. Creagh. Yes, sir, there's testing available.
    Mr. Mica. Okay. And then we should set aside a fund, or 
whatever, because we should make certain that these kids are 
taken care of. And then Mr. Edwards said this is going on not 
just in Flint. It's going on in D.C. It's going on in Durham we 
heard testimony today. And it needs to stop. And we need to 
make certain the system works. Right, Mr. Edwards?
    Mr. Edwards. That's correct.
    Mr. Mica. Right, Mr. Creagh?
    Mr. Creagh. Yes, sir.
    Mr. Mica. And you are new on the block.
    Mr. Beauvais. Yes, sir.
    Mr. Mica. Thank you, Citizen Hero, we appreciate what you 
did. Thank you.
    Chairman Chaffetz. Thank you.
    The audience is reminded to hold their applause, please.
    We will now recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    We ought to be clear about Flint, arguably, one of the 
worst municipal environmental tragedies in the modern era in 
the United States, and it was manmade. And it is the 
consequence, actually, of implementing a political philosophy 
of Social Darwinism, of smaller government, of rabid anti-
regulation, of attack, after attack, after attack on the EPA 
because our financiers don't like it.
    Let's be very clear how Flint happened. It did not happen 
by accident. And it wasn't a 7-to-1 vote to switch the source 
of water. That was a vote to switch water authorities. They 
didn't vote on going to the river. And those who want to argue 
with ``there is nothing wrong with the water, just add some 
phosphate to it,'' well, please, send a liter of that water to 
every one of my colleagues who want to take that position and 
watch them drink it.
    This is the consequence of putting ideology ahead of human 
beings and their needs and their welfare. The difference in 
political philosophy matters. Political choices have 
consequences, and Flint is the most dramatic in our generation. 
I do J'accuse. I do lay this at the doorstep of those who share 
that philosophy, and I want to see the Governor at this table. 
If you're so passionate and sanctimonious about holding people 
accountable--and God knows we have done that in the 7 years I 
have been on this committee--then let's have Governor Snyder at 
this table explaining himself.
    Mr. Creagh, in October of last year, the Governor appointed 
a task force, the Flint Water Advisory Task Force. And this is 
their report to the Governor. Is that correct?
    Mr. Creagh. They have issued some interim letters to the 
Governor.
    Mr. Connolly. But it's the Governor's appointed task force. 
Is that correct or not?
    Mr. Creagh. Yes, sir.
    Mr. Connolly. And let me see, on December 29, that interim 
letter you refer says, and I quote:We believe primary 
responsibility for what happened in Flint rests with your 
department, the DEQ. Although many individuals and entities at 
State and local levels contributed to creating and prolonging 
the problem, the Michigan Department of Environmental Quality 
is the government agency that has responsibility to assure safe 
drinking water in Michigan. It failed in that responsibility 
and must be held accountable for that failure.
    Are you aware of that finding, that interim finding?
    Mr. Creagh. I read the letter, met with the committee a 
couple of times.
    Mr. Connolly. Do you take issue with it?
    Mr. Creagh. I do not.
    Mr. Connolly. So you agree?
    Mr. Creagh. In retrospect, I agree.
    Mr. Connolly. Okay. They then said, they actually 
characterized your agency's response, quote, ``an abysmal 
public response to the crisis,'' unquote. Do you agree with 
that characterization?
    Mr. Creagh. In retrospect, I think that the auditor general 
agrees with that also, that we were minimalistic and legalistic 
in our behavior.
    Mr. Connolly. Mr. Edwards, is the primary responsibility 
here EPA's or DEQ's? How does it work?
    Mr. Edwards. Without question, the primary responsibility 
is those paid to protect Michigan citizens from lead in water. 
That's their job, and that lies exclusively with the MDEQ.
    Mr. Connolly. And Professor Edwards, just so for the 
record, because we are seeing--we are hearing a little 
mushiness about that, let's blame the EPA. And EPA has some 
culpability here, no question. But in terms of water quality, 
isn't that how it works? The EPA relies on State DEQs, 
certainly in our State, Virginia, to carry out the 
responsibility of oversight of water quality primarily. Is that 
not the case?
    Mr. Carter. That's correct.
    Mr. Connolly. And in this case, were there warning flags at 
all for Michigan DEQ about switching the source of water in--
before they did it?
    Mr. Edwards. Well, if they weren't before they did it, as 
soon as they made the switch, there was warning sign, after 
warning sign.
    Mr. Connolly. And what did they do with those warning 
signs?
    Mr. Edwards. They denied, denied, and denied that there was 
a problem.
    Mr. Connolly. And that put, Ms. Walters, people at risk. Is 
that not true? I give you the last word on how this happened.
    Ms. Walters. Yes, it did put us at risk. It wasn't my job 
to figure out that there was no corrosion control in the water. 
They should have known that from the start.
    Mr. Connolly. You had a reasonable expectation, did you 
not, that you could rely on the government to protect you and 
your family?
    Ms. Walters. Yes, I did.
    Mr. Connolly. Thank you very much.
    I yield back.
    Chairman Chaffetz. I now recognize the gentleman from 
Arizona, Mr. Gosar, for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    Administrator Beauvais, thank you for appearing today. When 
did the EPA first learn of the high lead levels in Flint's 
water?
    Mr. Beauvais. I think there were indications in the spring 
of 2015 with the testing of Ms. Walters' house and some 
neighboring houses that very high lead levels were being found 
there.
    Mr. Gosar. Now, I understand the concept, you know--I deal 
a lot with water--that EPA, the environmental quality, but it's 
set up as a checks and balances. Wouldn't you agree, Mr. 
Beauvais?
    Mr. Beauvais. EPA has an oversight responsibility.
    Mr. Gosar. You do.
    Would you agree, Mr. Edwards?
    Mr. Edwards. Yes, I do.
    Mr. Gosar. So if something fails, there is another line 
that should come about. So I'm going to go along this line of 
EPA. When did EPA Administrator McCarthy first visit Flint 
about this crisis?
    Mr. Beauvais. I believe that yesterday was Administrator 
McCarthy's first visit to Flint.
    Mr. Gosar. Wasn't until yesterday that she visited for the 
first time. So the day before this hearing. So Administrator 
McCarthy knew about this crisis for 8 months but didn't visit 
Flint until the day before a congressional hearing?
    Mr. Beauvais. I don't believe that Administrator McCarthy 
knew about the crisis for 8 months.
    Mr. Gosar. Really, something dynamic as this, and you 
didn't relay that up the chain?
    Mr. Beauvais. Well, I came into this job in November of 
2015, so I don't have personal knowledge of all of the 
communications that were done.
    Mr. Gosar. What's today?
    Mr. Beauvais. Today is February the 3rd.
    Mr. Gosar. It's February 2016. Right? To me, when you 
prioritize--and by the way, I'm a healthcare provider; I'm a 
dentist--you triage things like this. This is something that is 
a dynamic tragedy. It is an ongoing problem. Wouldn't you 
agree?
    Mr. Beauvais. I agree.
    Mr. Gosar. So wouldn't you put the highest priority on that 
application to figure out how--what went wrong and accept some 
of the blame and try to go forward? Would you not?
    Mr. Beauvais. This absolutely is our highest priority.
    Mr. Gosar. Well, it sure doesn't show it to me. Because if 
she knew in November, it's February before she shows up at 
Flint?
    Mr. Beauvais. The EPA has been intensively engaged in this 
situation since well before November.
    Mr. Gosar. Yeah, no, it's the same old thing. You have got 
to remember that this is the same EPA that knew about what was 
going to happen in a mine blowout in Colorado and now has a lot 
of people all the way down from Colorado, Utah, California, and 
Arizona all at risk because of some of their actions.
    So, yes, everybody desires or should take some of the 
blame. But some of that blame goes to EPA, and it goes to the 
head honcho. Just like, for example, for me in my office, 
somebody comes into my office and something goes wrong. I'm 
accountable for that. I find it despicable that the Gina 
McCarthy, Administrator, shows up in Flint yesterday instead of 
going there immediately, particularly when we see the outrage 
from the other side and from the people in this audience in 
regards to children and the lead poisoning that occurs. That's 
just despicable.
    Administrator Beauvais, an EPA employee, Susan Hedman, 
tried to discuss the seriousness of this memo in emails in July 
2015 by saying it was a draft, stating the memo should have 
never been released and stating that the memo never had final 
approval from the EPA hierarchy, having since resigned. 
Correct?
    Mr. Beauvais. Yes, Dr. Hedman has resigned.
    Mr. Gosar. Why did she resign?
    Mr. Beauvais. My understanding is that she resigned in 
order to make sure that the region and EPA could be fully 
focused on our response in Flint.
    Mr. Gosar. Why wasn't she fired?
    Mr. Beauvais. I can't answer that question. She stepped 
aside in order to make sure that we could focus all of our 
attention on----
    Mr. Gosar. Make sure that the Administrator has that 
question because we are going to ask that when the 
Administrator is here. Why wasn't she fired?
    The initial memo was sent on June 24th. Ms. Hedman promised 
a final memo. Was the final memo ever released?
    Mr. Beauvais. I believe that the final memo was released in 
October.
    Mr. Gosar. It's November.
    Mr. Beauvais. November.
    Mr. Gosar. November. Was it a comprehensive memo that 
details the chronic-ness and dynamic aspect of this tragedy?
    Mr. Beauvais. This particular memo that Mr. Del Toral did 
was focused on the testing of lead at Mrs. Walters' house and 
the neighboring homes.
    Mr. Gosar. But this memo, I understand, is not even nearly 
the comprehensive aspect that--would you consider it a shell of 
a release?
    Mr. Beauvais. The memo was focused on the specific testing 
that was done at Mrs. Walters' house and the neighboring homes 
and was a comprehensive look at that situation. It is not the 
entirety of EPA's review of the situation.
    Mr. Gosar. Dr. Creagh, I appreciate your testimony today, 
and you are one person today that has accepted some 
responsibility. And your Governor freely did the same through 
this crisis even though there is fault all the way across. That 
is commendable. Do you believe this incident would have 
occurred had the Flint City Council not voted to change its 
water source?
    Mr. Creagh. I think this incident occurred because of the 
lack of orthophosphate being added.
    Mr. Gosar. No, but if you never made the change, you would 
have never had this catastrophic event, right?
    Mr. Creagh. That's a true statement.
    Mr. Gosar. What would have happened if the city would have 
followed the directions of its water utility consultant?
    Mr. Creagh. There were a couple of different consultants, 
and it would have minimized the problem.
    Mr. Gosar. And what would have happened if the city would 
have followed the corrosive, the proper corrosive treatment?
    Mr. Creagh. As Dr. Edwards stated, we would not have had 
this problem.
    Mr. Gosar. So a series of checks and balances, everybody 
pointing the finger, and nobody wanting to take the blame 
except yourself and the Governor. I find that very humblingly 
bad that the government is not being part of the solution here.
    So, with that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize----
    Mr. Cummings. Me.
    Chairman Chaffetz. --the ranking member, Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I was going to let Mr. 
Cartwright go, but, Mr. Creagh, I'm getting very concerned 
about your testimony because I want to remind you that you are 
sworn to tell the truth, the whole truth, and nothing but the 
truth. So let's go over what you've just said.
    And I have got to get it right in here, because I'm kind of 
concerned because I don't want the public to not see this for 
the accurate truth.
    Mr. Creagh, Governor Snyder recently named you as the new 
head of the Michigan Department of Environmental Quality. Last 
month, your boss, Governor Snyder--and I'm hoping he's 
watching, by the way--gave his 2016 State of the State address. 
In his speech, Governor Snyder seemed to take responsibility 
for the Flint crisis stating that and I quote, ``The buck stops 
here with me,'' and that quote, ``I take full responsibility to 
fix the problem so that it will never happen again.''
    However, in the same breath, Governor Snyder also tried to 
blame the city of Flint. It sounds like you are doing right 
now, and he said this, and I quote, ``This crisis began in the 
spring of 2013 when the Flint City Council voted 7 to 1 to buy 
water from the Karegnondi Water Authority.''
    Mr. Creagh, do you agree with Governor Snyder's statement?
    Mr. Creagh. The question that I responded to, sir, was if 
they would never have changed their water source, would this 
issue have happened? And I believe that's a true statement 
because they were on Detroit water and sewer department water, 
which was phosphated, and they had a 30-year history. So I 
apologize if I misrepresented.
    Mr. Cummings. I'm not finished. Just hold on. I'm not 
finished. We reviewed the resolution passed by the city council 
and the minutes from the meeting. At no point during the 
meeting did the city council vote to allow the Flint River to 
be used for drinking water. Isn't that correct, Mr. Creagh?
    Mr. Creagh. I haven't reviewed those personally, but that's 
my understanding.
    Mr. Cummings. Mr. Chairman, I would like to introduce into 
the record, a letter we just received yesterday from Sheldon A. 
Neeley, who served on the city council from 2005 to 2014. He 
was actually there. He was there, Mr. Creagh. All right? In his 
letter, Mr. Neeley explains that the city council did not--do 
we have the letter? Where is the letter? Have you got it? 
Where's the letter? Oh, they have it. In his letter, Mr. Neeley 
explains that the city council did not make the decision to use 
the Flint River because quote: ``The Flint City Council had no 
power to actually enact any laws for the community. Everything 
went through the emergency manager,'' end of quote, who was 
appointed by the Governor. He also says this, and I quote--did 
you need something, Mr. Chairman?
    Chairman Chaffetz. No, I wanted to enter that letter.
    Mr. Cummings. Okay. Oh, yeah, would you please?
    Chairman Chaffetz. We will enter it into the record.
    Without objection, so ordered.
    Mr. Cummings. You're making me nervous. This is what he 
said: It was the emergency manager, Ed Kurtz, who made the 
decision to use the Flint River as a primary source of drinking 
water for the City of Flint.
    Mr. Creagh, are you aware of Mr. Kurtz' actions?
    Mr. Creagh. No, sir, I was not in this seat at the time.
    Mr. Cummings. And Mr. Creagh, so Mr. Neeley also wrote that 
quote: ``Governor Snyder's account of events leading to this 
water crisis are completely wrong,'' end of quote.
    Why would Governor Snyder try to blame the city council for 
this decision when it was his own appointee who made it and you 
have a city council that has no authority? There's something 
wrong with that. That's why I interjected here, because I want 
the truth, the whole truth, and nothing but the truth.
    Now, let me ask you. I'm not finished. Do you have any 
reason to believe that Mr. Neeley is not telling the truth?
    Mr. Creagh. I have no reason to believe.
    Mr. Cummings. Now Mr. Neeley's letter is supported by 
statements from Flint's former mayor, Dayne Walling. On January 
22, 2016, he stated and I quote: ``After city council and I 
expressed support for a new water supply from Lake Huron, the 
emergency manager, Edward Kurtz, went behind closed doors with 
the Department of Environmental Quality and decided to use the 
Flint River as an interim source, made the budget changes, and 
put that in place,'' end of quote.
    Were you aware Mayor Walling's statement?
    Mr. Creagh. I am not.
    Mr. Cummings. All right. Based on the evidence, it seems 
that Governor Snyder was trying to blame the city of Flint for 
actions of his own appointee, and he did this in his State of 
the State address to the entire population of Flint.
    Now, let me ask you something else. Are the people paying 
right now in Flint for water they cannot wash in and cannot use 
and cannot drink? Are they paying water bills? And is it a part 
of the recovery? You said you want to make them whole. Is that 
part of it? Why are they--why would they be paying for water 
that they cannot even use, that is poisoning them? That's not 
American. As Mr. Chairman said, this is not a Third World 
country. Are they paying those bills? Are you going to relieve 
them of that?
    Mr. Creagh. Everyone deserves safe drinking water, and 
that's the expectation. And, yesterday, the Governor introduced 
a supplemental for $30 million to help with that issue. The 
number one issue, as we have spoken with the mayor, is to make 
sure the utility remains solvent. And the billing is actually 
more of a city issue, but we understand and respect that, and 
everyone deserves water that is safe.
    Mr. Cummings. Mr. Chairman, as I close, these are people 
who are struggling. They are struggling. They have come over 
here all the way here from Flint, and I don't know how they got 
here. I guess on a bus. But the fact that they are here. But, 
you know what, Mr. Creagh and Mr. Chairman, they are also 
Americans. They are also Americans, just like you and just like 
your children. And I don't--and I want to be real, real, real 
clear. And the chairman will bear me out on this. I have said I 
don't care whether it's EPA, whether it's local, whether it's 
State. I want everybody who is responsible for this fiasco to 
be held accountable. I'm not protecting anybody because that's 
not our job. We are the last line of defense, and if we don't 
do it, nobody is going to do it.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you, Ms. Walters, for your testimony. Truly, it has 
made a profound difference in such a way--I'm from North 
Carolina, a long way away from Flint, Michigan. But in a way, 
we are connected. I got texts this morning from people who have 
been affected by Region 4, not Region 5, but with water quality 
issues for years and the EPA's failure to address them.
    Now, the troubling thing for me is that what I hear from 
our water quality EPA official is that they are going to just 
let the Office of Inspector General do their work. Now, the 
problem with that is--and I have high regard for that 
particular inspector general. In fact, I can tell you, Ms. 
Walters, that they will continue to look at it in a very 
detailed way. But it will not be enough. There is more than 
enough blame to go around. The problem is there is not enough 
answers to be shared. And so I'm going to come to the EPA and 
ask you, since FOIA is under my subcommittee--and the FOIA 
request allows the public to look at documents often used in a 
regular basis by reporters. And I'm troubled to hear that the 
FOIA request that Dr. Edwards has made has actually--you 
haven't complied with the law. What do you say to that?
    Mr. Beauvais. My understanding is that we are actively 
working to respond.
    Mr. Meadows. Active is not enough. Let me just tell you, we 
have got families that are suffering, and there's a law that 
says that you have to respond within 21 days. So what do you 
say to Dr. Edwards, who has been requesting information, 
because as I understand, Dr. Edwards, and if you will help me 
with this, that you have made requests both of the State and of 
the Feds. Who has been more responsive to you, Dr. Edwards?
    Mr. Edwards. The State of Michigan has been very 
responsive.
    Mr. Meadows. And so how many documents of what you've 
requested from the EPA have you received to date?
    Mr. Edwards. I'd have to check, but I still have FOIAs 
outstanding from 9 years ago in Washington, D.C., that I 
appealed in 2005 and that an attorney from EPA just contacted 
me 1 month ago about. So there----
    Mr. Meadows. Nine years.
    Mr. Edwards. Nine years.
    Mr. Meadows. Let me tell you the trouble that I have with 
this. We have a site in western North Carolina called CTS. 
You're familiar with that, I'm sure, aren't you?
    Mr. Beauvais. I have heard about the site. I do not have 
direct personal knowledge about it.
    Mr. Meadows. Okay. I would ask, since you're new to the 
job, that you get some personal knowledge.
    Mr. Beauvais. Yes, sir.
    Mr. Meadows. Because we have a recurring theme here. We 
have unbelievable regulations that come down, and then the EPA 
does not enforce their own regulations. There's a problem with 
that, don't you think?
    Mr. Beauvais. It's important for EPA to enforce its 
regulations.
    Mr. Meadows. Can you share with me your rationale, why it 
would take 9 years to answer a FOIA request for Dr. Edwards?
    Mr. Beauvais. I have no idea. I'm not familiar with the 
specific request at issue.
    Mr. Meadows. Okay. What commitment do we have from you 
today to get those FOIA responses answered as it relates to the 
Flint, Michigan, issue?
    Mr. Beauvais. I will take that back and ensure that it 
gets----
    Mr. Meadows. Okay, you're going to take it back. When can 
this committee and when can Dr. Edwards expect a response? Is 
the law clear?
    Mr. Beauvais. I believe that the law is clear on the 
timeframes for response. I will take that back and ensure that 
it's a high priority.
    Mr. Meadows. All right. So, obviously, you prepared for 
this hearing this morning. When you were talking about the 
information that needed to be shared with the people of Flint, 
what was your own internal guidance among your attorneys? A 
couple, I guess, are sitting behind you. What did you recommend 
that you share?
    Because what happens is everybody gets lawyered up and then 
they do nothing. And I can tell you, from a bipartisan 
standpoint, this Republican from western North Carolina is 
going to work with Democrats from Michigan to make sure that 
not only you are held accountable but the State is held 
accountable and all those who have been involved in this are 
held accountable, because we've got children--it could have 
been my children in Flint, Michigan, and I'm not going to 
forget that. It could have been your children.
    So what kind of commitment do we have from you to get the 
documents to this committee so that we can figure out who's to 
blame?
    Mr. Beauvais. My understanding is that there have been 
discussions between committee staff and the agency and that a 
commitment has been made to work expeditiously to get 
unredacted copies of certain FOIA documents that were released 
as well as documents related to the committee's request.
    Mr. Meadows. So do you think the 60 days is enough time?
    Mr. Beauvais. My understanding is that actually the agency 
has agreed to provide some documents that we can provide by the 
end of this week.
    Mr. Meadows. Very good.
    I yield back.
    Chairman Chaffetz. Thank you to the gentleman.
    We will now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I'd like to associate myself with the remarks of the 
ranking member, Mr. Cummings. And not to put too fine a point 
on it, what we see here is the responsible, the culpable party 
being caught red-handed, so red-handed that he had to admit his 
blame and apologize to the Nation and to Flint, this Governor 
of Michigan and his emergency manager, hand-picked, to save 
money--in keeping with his philosophy of government, to save 
money on infrastructure at the expense of public safety. He got 
caught red-handed poisoning children in Flint and the residents 
of Flint. There's no two ways about it. That's the headline 
here.
    But, you know, criminals, when they get caught red-handed, 
you know what they start to do right away? They start to try to 
spread the blame. Oh, there's plenty of blame to go around, I 
heard. There's plenty of blame to go around. So let's just put 
aside the fact that the Governor of Michigan got caught red-
handed poisoning his citizens. Let's forget about that. Let's 
also try to blame the Flint local officials.
    You know, Representative Kildee from Flint got up here, and 
he testified, and he made a very prescient point that it's an 
attempt to create an equivalency of blame. That's what I say; 
they're spreading the blame out. And anytime somebody says 
something about a seven-to-one vote in Flint, that is exactly 
what Dan Kildee's talking about, is people trying to put the 
blame on the local officials in Flint, blame that has no place 
in the local officials in Flint. This is the Governor of 
Michigan at fault, his emergency managers.
    And I was saddened to hear my colleague from Florida say 
out loud, talk about the seven-to-one vote. They voted seven to 
one not to switch the Flint River water; they voted seven to 
one on something completely different. So that's ridiculous. 
And it is a reprehensible attempt to achieve what Dan Kildee 
calls the equivalency of blame and something that criminal 
defendants always do when they get caught red-handed.
    Now, Mr. Creagh, I want to talk about what the State did. 
It made a decision not to use the Flint River, and then it 
reversed that decision. Am I correct on that?
    Mr. Creagh. I wasn't party to a decision----
    Mr. Cartwright. You weren't there. Okay.
    According to press reports, one of Governor Snyder's 
emergency managers for Flint, a Mr. Jerry Ambrose--is he here 
today? Can anybody tell me why Jerry Ambrose is not here today? 
Can anybody tell me why the Governor of Michigan is not here 
today? Because he's hiding. That's what's happening.
    Ambrose testified in a sworn deposition that in 2012 the 
Governor's previous emergency manager in Flint, Ed Kurtz, had 
rejected a previous proposal to use Flint River water as a 
primary source of drinking water.
    Are you aware of that decision, Mr. Creagh?
    Mr. Creagh. I am not.
    Mr. Cartwright. Well, let me read it to you. It said this, 
and I quote: ``It was a collective decision of the emergency 
management team based on conversations with the DEQ that 
indicated they would not be supportive of the use of Flint 
River on a long-term basis as a primary source of water.''
    Mr. Creagh, when Mr. Ambrose was asked why your department 
made that recommendation, he replied, and I quote, ``You'll 
have to ask them.''
    So I'm asking you, as the head of MDEQ, why did your 
department previously oppose the use of Flint River water as a 
primary source back in 2012?
    Mr. Creagh. I don't have knowledge as to that conversation 
or decision.
    Mr. Cartwright. You don't know. Your predecessor was Dan 
Wyant, and that's why we've called for his deposition, Mr. 
Chairman, and I press that request.
    I'm trying to figure out what happened between 2012 when 
your department, Mr. Creagh, opposed using the Flint River and 
2014 when you reversed course and signed off on permits to 
allow it. And you can't explain that to us because you weren't 
there at the time, right?
    Mr. Creagh. That's correct.
    Mr. Cartwright. Okay.
    We're having a hearing here in Washington, D.C., with 
witnesses who do not have personal knowledge of the subject. 
How crazy is that? How interested are we, really, in getting at 
the facts when they bring here witnesses who don't know what 
went on?
    Mr. Creagh, in a press release dated April 25, 2014, 
Michael Prysby of your department stated, ``The quality of the 
water being put out meets all of our drinking water standards 
and Flint water is safe to drink.'' He said that. You know 
that, right?
    Mr. Creagh. Correct.
    Mr. Cartwright. It was a lie, wasn't it?
    Mr. Creagh. Mr. Prysby was--his comment was in relationship 
to the water leaving the plant, making sure it met safe 
drinking water standards. And that's what he based that comment 
on.
    Mr. Cartwright. Mr. Chairman, I'm out of time. I hope 
you'll designate a minority day of hearings as soon as possible 
so that we could have witnesses who actually know what the 
facts were at the time.
    And I yield back.
    Chairman Chaffetz. The gentleman from Georgia, Mr. Hice, is 
now recognized for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Beauvais, I want to begin with you. The lead and copper 
rule may not nearly be as protected as previously considered. 
The Safe Drinking Water Act requires that the lead and copper 
rule be updated every 6 years. Are you aware of that?
    Mr. Beauvais. There is a provision in the Safe Drinking 
Water Act requiring a review of the regulations.
    Mr. Hice. When was the last time that it was updated?
    Mr. Beauvais. 2007 is the last time that the rule was 
updated.
    Mr. Hice. Why is the EPA so far behind?
    Mr. Beauvais. We've been working actively. We wanted to get 
advice from our National Drinking Water Advisory Council with 
regard to the revisions that will be proposed, and we also 
received advice from a number of other stakeholders----
    Mr. Hice. How many years does it take to get the 
information in order to abide by what you are required to do?
    Mr. Beauvais. This is a high priority for us, and it's 
essential that we move forward with revisions to the rule.
    Mr. Hice. This is a high priority for all of us.
    I don't know, Mr. Chairman, that there's been more of a 
catastrophe in government handling of an issue since Hurricane 
Katrina. This is absolutely a trainwreck in every way. And the 
EPA is so far behind, not doing the job.
    When will the updated version be ready?
    Mr. Beauvais. The current schedule for proposing revisions 
to the rule had a proposal coming in 2017. It's important that 
we take actions even in advance of completing any revisions to 
the rule to review how the current rule is being implemented. 
Dr. Edwards and others have raised a number of important issues 
with regard to the implementation of the current rule, and so 
we're actively going to be working----
    Mr. Hice. My question is, when will it be ready?
    Mr. Beauvais. My expectation at this point in time is that 
it would be proposed in 2017.
    Mr. Hice. Do we have your commit that it will be early 
2017?
    Mr. Beauvais. I certainly would hope that the agency----
    Mr. Hice. You realize that's yet another year----
    Mr. Beauvais. I do.
    Mr. Hice. --to get done something that should have been 
done, what, 4 years ago now?
    Do we have your commitment that it will be done in early 
2017?
    Mr. Beauvais. I can commitment that our work on the lead 
and copper rule revisions will be one of the highest priorities 
in my office, as well as work to address implementation of the 
current rule.
    Mr. Hice. When Mr. Del Toral produced his memo finding the 
high levels of lead in the drinking water in June, where did 
that memo go?
    Mr. Beauvais. My understanding is that Mr. Del Toral gave 
the memo directly to Ms. Walters, whose home was the subject of 
the testing. My understanding is that that was then provided to 
a reporter and that it went out into the public.
    Mr. Hice. Well, at some point, Mr. Del Toral was on a leave 
of absence. Who worked on this issue in his absence?
    Mr. Beauvais. I'm not aware that he was placed on leave of 
absence.
    Mr. Hice. Okay.
    Mr. Edwards, let me go to you. Do you believe in any way 
that the EPA's management of this whole thing hindered its 
employees from having the ability to do their job in Flint?
    Mr. Edwards. Absolutely.
    Mr. Hice. Absolutely. Okay. Do you believe that the EPA's 
management made the lead crisis in Flint worse?
    Mr. Edwards. Absolutely.
    Mr. Hice. Absolutely. Who at the EPA do you find fault?
    Mr. Edwards. Susan Hedman.
    Mr. Hice. Pardon me?
    Mr. Edwards. Ms. Susan Hedman, who had the memo buried, 
covered up, and stood silent as Mr. Del Toral was publicly 
discredited for his work. When she was questioned by 
politicians from all parties 3 years later, September of this 
year, she discounted that there was anything of concern in 
Flint occurring at all. And that includes Mayor Walling, people 
from the State government, as well as Democratic congressional 
staff.
    Mr. Hice. Okay.
    Mr. Chairman, has the letter from John O'Grady, the EPA 
union representative, yet been entered into the record?
    Chairman Chaffetz. Sorry, which letter?
    Mr. Hice. From John O'Grady.
    Chairman Chaffetz. If it hasn't, we will enter it. Without 
objection, so ordered.
    Mr. Hice. Okay. Thank you, Mr. Chairman.
    Let me go back, if I can, Mr. Beauvais, to you. Are you 
aware of any other situations in Region 5 where there may be 
the potential of contaminated water?
    Mr. Beauvais. I am aware of a recent situation with regard 
to Sebring, Ohio, where there has been a concern with high lead 
levels in the drinking water system, of which EPA was made 
aware just within the last week. And my understanding is that 
action is being taken with regard to that situation. I believe 
that EPA staff have been on the ground actually as of yesterday 
in Sebring looking at that situation.
    Mr. Hice. What about other regions throughout the country?
    Mr. Beauvais. There are drinking water issues across the 
country that we are monitoring actively and working with our 
State partners to address.
    Mr. Hice. Mr. Chairman, my time has expired. I thank you. I 
yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from Illinois, Ms. Kelly, 
for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. And I want to thank you 
and Ranking Member Cummings for having this hearing.
    I also want to thank Rep. Kildee and Rep. Lawrence for 
their leadership on this issue.
    I also associate myself with the remarks from Rep. Lawrence 
and Ranking Member Cummings. We need to get the folks here who 
can answer the question of why this happened. And I hope when 
we have another hearing that Mr. Del Toral will be here, as 
well as the Governor and other people we deem necessary.
    I want to thank the residents of Flint for being here.
    And, Ms. Walters, thank you so much for all of your efforts 
and for your testimony.
    On November 20, 2015, the EPA's Flint Drinking Water Task 
Force commented on Flint's residential drinking water lead and 
copper sampling instructions. The task force made several 
recommendations, including removing preflushing from the sample 
collection process. The task force concluded, and I quote, 
``These changes should be made to all of the sampling 
recommendations or instructions from MDEQ to all systems, not 
just Flint.''
    Mr. Creagh, do you agree that these changes should be made 
statewide?
    Mr. Creagh. I agree, and those changes have been made.
    Ms. Kelly. They have been made?
    Mr. Creagh. Yes.
    Ms. Kelly. So, okay, they're across Michigan.
    Dr. Edwards, do you feel that these recommendations by the 
EPA task force should apply across the Nation?
    Mr. Edwards. Yes, absolutely.
    Ms. Kelly. And would you include anything else in the 
recommendation?
    Mr. Edwards. No, that--well, obviously, that the utilities 
should be following the protocol for identifying the high-risk 
sampling pool. All across the United States, they're supposed 
to be sampling from the homes that are highest risk for lead in 
water, and there's very real reason to believe that's not 
occurring. And the whole effectiveness of the rule is based on 
that first step as well.
    Ms. Kelly. Okay.
    Mr. Beauvais, what are the barriers to EPA applying these 
recommendations across the country?
    Mr. Beauvais. My understanding is that we can follow it 
with making these recommendations across the country, and we're 
actively working on that. In terms of regulatory requirements, 
those issues will have to be taken up in the revisions to the 
rule.
    Ms. Kelly. Okay. I think that this change should be pursued 
if it means that we will get a more accurate picture of lead 
contamination in our drinking water across the Nation and stop 
future lead water crises from happening. We must stop these 
problems at the most basic level of detection and ensure that 
we are getting accurate information.
    We also must stop playing with people's lives when 
practicing government on the cheap as well as systemic 
environmental discrimination.
    I yield the rest of my time to Representative Lawrence.
    Mrs. Lawrence. Thank you.
    I want to just emphasize something, and we can't say this 
enough. When we say we're pointing fingers, there is the 
Federal Government, EPA, and there's the State government. 
Because under the emergency manager act in Michigan, the local 
government, the city of Flint, has no government authority.
    So the decisions that were made and the actions that were 
taken, we can look at the State level and we can look at the 
Federal level. I want to be clear about that. All of us who 
live in Michigan clearly understand the emergency manager act. 
It comes in and it dissolves home rule. And the emergency 
manager reports only--only--to the State government, and that's 
our Governor.
    I also want to say, when we were saying that the EPA had 
not showed up until this last week when the new Secretary 
showed up--I want to enter this into the record. January the 
21st, there was a United States EPA Office of Enforcement and 
Compliance Assurance letter submitted to the city saying that, 
as a result, the EPA is issuing an SDWA emergency order to make 
sure that the necessary actions to protect public health happen 
immediately.
    In addition to that, because of a failure of the State, the 
State no longer has the responsibility of testing the water in 
Flint. Just this last week, it was taken over--or this week--it 
was taken over by EPA because of the failure of the State to 
comply with this order.
    And so it may have come late, but to say nothing had 
happened from EPA to that point--and, again, there was 
documented a failure on the State's part to actually collect 
and test the water.
    So we have, again, the State and the Federal Government. If 
we're talking about pointing fingers--and that's not why I'm 
here. I'm not pointing fingers. I want the truth, and I want 
this corrected.
    Thank you. I yield back.
    Chairman Chaffetz. As to the document, we'll enter that 
into the record unless there's an objection. But, without 
objection, so ordered.
    Chairman Chaffetz. I now recognize the gentleman from 
Oklahoma, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    Dr. Edwards, Ms. Walters, thank you for your courage in 
this issue and for exposing for the Nation when things fail.
    Mr. Beauvais, what is the fundamental core mission of the 
EPA?
    Mr. Beauvais. Protection of public health and the 
environment.
    Mr. Russell. I see. You stated that the lead and copper 
rule was updated in 2007; yet, from our facts, we see that the 
lead and copper rule has not been finalized in any long-term 
update in 25 years. Why is that?
    Mr. Beauvais. There have been efforts to update the rule 
periodically over time. It was updated most recently in 2007. 
The long-term revisions to the rule are what we're working on 
right now.
    Mr. Russell. ``What we're working on.'' So, for 25 years, 
we've been working on them.
    In the last decade, the EPA has issued about a thousand 
rules a year, and yet the lead and copper rule has not been 
finalized in 25. When do you expect that that will be done?
    Mr. Beauvais. As I said before, my expectation is that 
we'll propose the rule in 2017.
    Mr. Russell. Well, according to EPA's agenda that was 
released last fall, it stated that the agency hopes to finalize 
the rule in 2018. So, once again, we see a moving target. We've 
got it, we'll take it back, we'll get back to you, we're 
working on it. That's not the core mission of protecting the 
health of people where they live, where they work, and where 
they recreate.
    In fact, we've seen in cases in Flint that General Motors 
determined that the water was so substandard that they shut it 
down. They said, we're not going to use that water. It was 
unfit for a work environment. And yet we've seen procedures 
that have moved on that made the community even more at risk 
over time.
    Dr. Edwards, do you believe that the EPA is violating the 
law and its statutory requirements?
    Mr. Edwards. Yes, I do. I don't think they're following or 
enforcing the law.
    Mr. Russell. What do you believe has created this shift 
away from the EPA's core mission?
    Mr. Edwards. Well, they have a very cozy relationship with 
water utilities. That's a good example of regulatory capture, I 
think. They're not listening to voices of people who have been 
harmed by this regulation in Washington, D.C., Durham, and 
Flint. And that's what happens when you listen to one group and 
ignore the people who are betrayed by this rule.
    Mr. Russell. For 25 years, the lead and copper rule has 
been a problem. Communities don't really have certainty. They 
don't have finalization. So now a patchwork of requirements 
exist nationwide. How do we fix it?
    Mr. Edwards. Well, for starters, you could enforce the 
existing law. I think----
    Mr. Russell. Imagine that.
    Mr. Edwards. --the existing law would have stopped Flint. 
It would have stopped Washington, D.C. if it wasn't for all 
these extra instructions that are being added to the rule, 
allowing people to throw out samples for eight different 
reasons, none of these things would have happened.
    So alls I want is for them to enforce the existing law. 
That's all I've been requesting, and my colleagues that have 
been working on this for the last 10 years in Washington, D.C.
    Mr. Russell. Mr. Beauvais, we see that there's been a 
statutory requirement to do updates and mandates, and yet, you 
know, by your testimony, we see dates all around that really 
don't sync with previous statements from the EPA as far as, you 
know, when this lead and copper rule would be mandated. We've 
heard testimony that not only is convincing but it's condemning 
to the priorities of the EPA.
    What's your answer to this?
    Mr. Beauvais. I want to emphasize that it's EPA's position 
and it has been EPA's position throughout this situation that 
the water system in Flint was required to apply corrosion 
control upon making the switch to Flint River water. That is a 
conclusion and a view that MDEQ resisted throughout this 
process. And if that rule had been observed here and corrosion 
control had been applied, this situation would not have 
occurred.
    Mr. Russell. And yet we have a trail of emails, Mr. 
Beauvais, where your own agency and Region 5 tried to belittle, 
obstruct, and pretty much eliminate the voices from the 
community. And yet now you're going to shift that to the 
Michigan DEQ? Is that what I'm hearing you say?
    Mr. Beauvais. Certainly, when we look back on this 
situation, knowing what we know now, everyone should have done 
everything humanly possible to avoid this situation. At EPA, we 
need to go back and look and understand what happened and make 
sure that it never happens again. But I do think it's important 
to remember how we got in this situation.
    Mr. Russell. 1991, 2004, 2007. What's it going to be again? 
How many more Ms. Walters are we going to have to hear? Which 
city is next?
    Get the rule finalized. You owe it to the American people. 
We have certain expectations. And while we all have our 
different opinions about the thousands of rules that get passed 
here in the last decade, I think this one, with lead and copper 
in drinking water, is pretty important.
    With that, Mr. Chairman, I'll yield back my time.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Let's call what happened in Flint what it is: a crime of 
epic proportions. We have tens of thousands of women, men, and 
children poisoned by lead when it leached from the lead metal 
pipes. Those most responsible know who they are. They should 
resign, and some of them should be prosecuted.
    I'd like to focus today my comments and questions on how do 
you make this right for the residents of Flint. I believe we 
help make it right by giving them a permanent solution. That 
means replacing their lead pipes.
    [Applause.]
    Mr. Lieu. So I want to enter, first of all, into the 
record, Mr. Chair, an article from Salon dated Monday, January 
25, by Antoaneta Roussi about Flint.
    Chairman Chaffetz. Without objection, so ordered.
    And I would remind the audience that no applause or booing 
or any reaction from the audience would be appropriate for this 
hearing. Thank you.
    Mr. Lieu. Mr. Creagh, let me read a few sentences from this 
article, ``The Safe Drinking Water Act required the EPA to set 
standards for the concentration of lead in public pipes, with a 
push for lead-free. This steered the country on a road toward 
replacing old water pipes with PVC, also known as plastic 
pipes, as an eco-friendly alternative. However, many poorer 
municipalities instead turned to anticorrosive agents as a 
cheaper and faster solution.''
    Had Flint had plastic pipes, we wouldn't be sitting here 
today, correct?
    Mr. Creagh. That's correct.
    Mr. Lieu. And even with anticorrosion agents, over time the 
metal pipes still corrode. Isn't that correct?
    Mr. Creagh. Yes, sir.
    Could I amend my earlier answer? Even with plastic pipes, 
you would still have to look at the fixtures within the various 
facilities. And so I just wanted to put a little sharper point 
on that.
    Mr. Lieu. Thank you.
    Mr. Creagh. Thank you.
    Mr. Lieu. And we have over 850 water main breaks a day in 
America caused by corrosion, even with anticorrosion agents in 
the water. Isn't that roughly correct, Mr. Creagh?
    Mr. Creagh. I do not know that number.
    Mr. Lieu. We have a lot of water main breaks, correct?
    Mr. Creagh. That's a true statement.
    Mr. Lieu. All right.
    So I want to enter now into the record an article. It says, 
``Flint Water Crisis: Mayor Says 'Lead Pipes Have Got to Go.''' 
NBC News. Could I enter that into the record, Mr. Chair?
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lieu. Would you agree, Mr. Creagh, with Flint Mayor 
Karen Weaver that there needs to be the rapid removal of lead 
pipes now and to be replaced with a nonlead alternative instead 
of the Band-Aid solution of just anticorrosive agents or simply 
recoating these lead pipes?
    Mr. Creagh. I think it's a complicated issue, as 
Congresswoman Norton had pointed out that partial replacement 
may cause additional problems. And so that's the reason we're 
working with the experts to make sure that whatever happens 
does not----
    Mr. Lieu. What about full replacement with plastic pipes or 
other nonlead pipes?
    Mr. Creagh. That certainly would be one solution.
    Mr. Lieu. Okay.
    I'm going to now ask you another question. Are you aware 
that many newer, wealthier cities in America and Canada have 
switched to plastic pipes as an alternative to lead pipes?
    Mr. Creagh. I think there's a prohibition that was in the 
building codes to prohibit the continued use of lead pipes.
    Mr. Lieu. Okay.
    So let me switch to Mr. Beauvais of the Federal EPA.
    I'd like to enter into the record, Mr. Chair, a report from 
the National Resources Defense Council. It says, ``Study Finds 
Safety of Drinking Water in U.S. Cities At Risk.'' NRDC reports 
on drinking water systems in 19 cities and found that 
pollution, old pipes, and outdated treatment threaten tap water 
quality.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lieu. Mr. Beauvais, we really have a national problem, 
don't we, of lead pipes all around America that leach lead into 
the water system even with anticorrosive agents, correct?
    Mr. Beauvais. There are millions of lead service lines 
across the country in thousands of systems, and this is a 
challenge for us nationwide.
    Mr. Lieu. And we have hundreds of water main breaks because 
those pipes are being corroded, correct?
    Mr. Beauvais. Yes, we have significant water main breaks.
    Mr. Lieu. And there are nonlead alternatives, such as 
plastic piping or other pipes, that would not leach lead into 
the water supply, correct?
    Mr. Beauvais. In lieu of lead service lines, yes.
    Mr. Lieu. Now, is there an EPA rule on plastic pipes?
    Mr. Beauvais. I'm not aware of a specific rule on plastic 
pipes.
    Mr. Lieu. And there's an EPA rule on lead and copper 
because those are toxic, correct?
    Mr. Beauvais. That's correct.
    Mr. Lieu. Okay. Is there any reason the EPA doesn't look at 
having municipalities switch to plastic pipes or other nonlead 
alternatives?
    Mr. Beauvais. There actually are lead service line 
replacement requirements that can be triggered under the lead 
and copper rule that exists today when certain action levels 
are exceeded. This will be a major subject of engagement and 
analysis in the lead and copper rule revisions. We have advice 
from the National Drinking Water Advisory Council and from 
other stakeholders on these issues.
    It's important to remember that, even as we look at issues 
of full lead service line replacements, I believe Dr. Edwards 
and others have advised that if that's going to be done it has 
to be done correctly in order not to actually create bigger 
problems.
    Mr. Lieu. Thank you.
    I'm going to make a request of the chairman and then yield 
back. If you have another hearing, I do ask that perhaps we 
have a witness that can talk about how we solve this on an 
ongoing basis.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from South Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. I thank the chairman.
    And I thought something that Ms. Eleanor Holmes Norton 
mentioned earlier was very insightful, which is I think the 
purpose here is really to sort of treat this as a problem-
solving exercise versus a blame-laying. There will be plenty of 
time for that and also other people involved with that. Folks 
are, some of you, very new to this process.
    I want to go back and look at the timeline for a little 
bit. Help me understand this.
    Mr. Beauvais, you said that the EPA learned about this in 
the spring of 2015. By the way, do you have a month on that, 
just for filling in the timeline?
    Mr. Beauvais. My understanding is that EPA first learned 
that the city was not applying corrosion control to its system 
in late April of 2015.
    Mr. Mulvaney. April 2015.
    Now, when did Flint move the water supply to the Flint 
River, Mr. Creagh?
    Mr. Creagh. I believe that was moved in April of 2014.
    Mr. Mulvaney. Okay.
    Mr. Creagh. But I'll check that with our timeline here for 
accuracy, sir.
    Mr. Mulvaney. Does that generally comport with----
    Mr. Creagh. Yes.
    Mr. Mulvaney. And is it generally your understanding that 
they did not use the phosphate or other similar treatment from 
the very beginning?
    Mr. Creagh. Yes.
    Mr. Mulvaney. Okay.
    Dr. Edwards, I want to ask you a question. If I start 
pulling water out of the Flint River and I put it through these 
particular pipes, how long will it take before the water has an 
impact on the quality of the drinking water that people are 
drinking?
    Mr. Edwards. It has----
    Mr. Mulvaney. Is it immediate? Does it take a couple months 
for it to break down the lining of the pipes? How long does 
that take?
    Mr. Edwards. It takes a period of weeks to about a month. 
And that's when the first consumer complaint started arising 
about red water, which is iron rust falling into the water.
    Mr. Mulvaney. So, give or take, now we're at May of 2014. 
We're still 11 months from the EPA knowing about it. But here 
we are, May of 2014.
    Mr. Creagh, I think you said that it was the city's 
responsibility to certify that the standards had been met. How 
often are they supposed to do that?
    Mr. Creagh. I think it's on an annual basis. I believe it's 
on an annual basis.
    Mr. Mulvaney. On an annual basis. Okay. So when was the 
most relevant certification in that 2014-2015 timeline?
    Mr. Creagh. So I'll sharpen my answer. I believe that they 
send in monthly results, but I think that there's an annual 
review.
    Mr. Mulvaney. All right. So let's focus on the monthly 
results first. So they're sending results to you folks every 
month on the quality of the water in Flint, right?
    Mr. Creagh. Well, I'm not saying I have any expertise on 
the particulars of the reporting aspect. So I really can't 
speak to that directly.
    Mr. Mulvaney. Okay, but Dr. Edwards is nodding his head. 
So, clearly, somebody--what does the city do on that? You see 
what I'm trying to get to.
    Mr. Creagh. There's a monthly report on----
    Mr. Mulvaney. Okay.
    Mr. Creagh. --distribution system monitoring.
    Mr. Mulvaney. Did the monthly report that the city of Flint 
was delivering beginning in April of 2014 show that the water 
quality in Flint was a problem?
    Mr. Creagh. It's my understanding it didn't, that it met 
the Safe Drinking Water Act quality parameters.
    Mr. Mulvaney. Okay. Did the city ever send a report, the 
monthly report, that said the water didn't meet the standards, 
ever?
    Mr. Creagh. No. It's a different question, and question and 
answer and question and answer. But let me just help you with 
that, sir?
    Mr. Mulvaney. Sure.
    Mr. Creagh. So the water quality parameters that are 
required under the Safe Drinking Water Act don't necessarily 
ask for lead to be tested at that point in time.
    Mr. Mulvaney. Okay. Wow.
    Is that true, that the EPA doesn't require them to send 
information on lead?
    Mr. Beauvais. I believe that you may be talking about two 
different things, Mr. Congressman.
    Mr. Mulvaney. It's possible. I don't know anything about 
this.
    Mr. Beauvais. The water quality parameter monitoring, as I 
understand it, at the drinking water--compliance with the lead 
and copper rule is actually monitored and tested through 
samples that are taken in the distribution system, because lead 
leaches into the water from the lead service lines and so 
forth. And so those samples are not taken at the water 
treatment plant.
    I want to add, however, that in 2014 the Flint system 
actually had multiple violations of Safe Drinking Water Act 
standards, including the total coliform rule and the 
disinfection byproducts rule.
    Mr. Mulvaney. It's unfortunate we only have 5 minutes. We 
can't do a proper deposition in 5 minutes, especially with four 
witnesses. So I apologize, I'm not going to--I've got a lot 
more questions on the timeline.
    Let me skip ahead to another question, which is Mr. Palmer 
just showed me something that says that my State does not 
report to the CDC on lead in water. Do they report to the EPA, 
Mr. Beauvais? This is South Carolina.
    Mr. Beauvais. With regard to lead in water, well, the South 
Carolina State government would be the primacy agency in South 
Carolina.
    Mr. Mulvaney. But do they tell you?
    Mr. Beauvais. Those results are reported up through the 
EPA's data system.
    Mr. Mulvaney. So while South Carolina might not tell CDC, 
the Centers for Disease Control, they may tell the EPA about 
the quality of the water, including lead presence in my water 
in South Carolina.
    Mr. Beauvais. I would expect so, yes.
    Mr. Mulvaney. And did Michigan do the same thing?
    Mr. Beauvais. Ultimately, yes.
    Mr. Mulvaney. Okay.
    Again, my time is up. And I apologize, that wasn't very 
fruitful, but I'd like to continue this another time if we can.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I've listened to this entire panel discussion, and I have 
to tell you, I have--my questions are going to be directed 
first to Mr. Creagh, and then I have a question for Mr. 
Beauvais.
    It is clear to me that the responsibility doesn't lie with 
the local officials, because the local officials were as much 
victims as the unelected local residents. But you, Mr. Creagh, 
as the director of the Department of Environmental Quality, 
whatever it's called in Michigan, you, at that level, you are 
primarily responsible. You and the Governor of the State of New 
Jersey--the State of Michigan--I've got that problem in New 
Jersey, just to be clear. But the Governor placing those 
individuals in that responsibility over the city of Flint, 
Michigan, and then taking all authority away from the elected 
officials in the city of Michigan, you have primary 
responsibility here. And your apology after the fact rings 
hollow.
    So I have a couple of questions. Mr. Creagh, your boss, 
Governor Snyder, appointed emergency managers for the city of 
Flint from 2011 through 2015. Based on the law, Governor 
Snyder, championed in 2011, his emergency managers took over 
all the powers exercised by Flint's city council and the mayor. 
If his emergency managers was something the elected 
representatives of Flint didn't like, there was nothing that 
they could do about it.
    On March 23, 2015, the city council attempted to reverse 
the decision to use Flint River water. They adopted a 
resolution by a vote of seven to one, and I quote, to return to 
the Detroit Water and Sewerage Department for the purchase of 
water for its citizens.
    Mr. Creagh, are you aware of that resolution and that vote?
    Mr. Creagh. I have not seen that resolution.
    Mrs. Watson Coleman. The problem is that Flint was still 
under the control of the emergency manager, Jerry Ambrose in 
this case.
    The next day, on March 24, 2015, Mr. Ambrose overruled the 
city council's vote. Let me read to you what he said, and I 
quote: ``Flint water today is safe by all EPA and MDEQ 
standards, and the city is working daily to improve its 
quality. Water from Detroit is no safer than water from 
Flint.''
    Are you aware of that statement?
    Mr. Creagh. I am not.
    Mrs. Watson Coleman. Mr. Ambrose called the effort by the 
city council to stop using Flint River water, and I quote, 
``incomprehensible.''
    Mr. Creagh, do you agree that Mr. Ambrose's actions were an 
absolutely horrible decision for the people of Flint?
    Mr. Creagh. I cannot address Mr. Ambrose's actions. I can 
say that the plant in Flint had been used historically as a 
backup water supply utilizing the Flint River, had passed its 
performance standards, had been tested on a quarterly basis----
    Mrs. Watson Coleman. That's very interesting, Mr. Creagh, 
that I'm sitting here looking at water being held in baby 
bottles and water bottles that looks like lemonade and iced tea 
and not clear water.
    Mr. Creagh, if Mr. Ambrose let the city council's decision 
to stand, the actual amount of lead exposure in Flint would 
have been reduced. Is that not so? Can you say ``yes'' or 
``no'' to that?
    Mr. Creagh. I'm sorry, would you repeat that one more time?
    Mrs. Watson Coleman. If he had let the city council's 
resolution to return to the Detroit water system as a source of 
water, would the actual amount of lead exposure in Flint--would 
it have been reduced?
    Mr. Creagh. I believe that's a true statement.
    Mrs. Watson Coleman. Mrs. Walters, this decision by the 
Governor's emergency manager for Mr. Ambrose came after the 
State was told about the extremely high levels of lead in your 
house in February, right?
    Ms. Walters. Correct, February 25 and March 17.
    Mrs. Watson Coleman. And I'm so very sorry for you and the 
residents and the children of the city of Flint. It seems to me 
that the decision by the Governor's emergency manager was one 
of the worst actions in this entire debacle.
    Mr. Creagh, how long have you been involved in State 
government at the director level in other departments?
    Mr. Creagh. I was the director of the Michigan Department 
of Agriculture from January of 2010 through July of 2011 and 
director of the Michigan Department of Natural Resources from 
that time until January 4.
    Mrs. Watson Coleman. Do you consider yourself a member of 
Governor Snyder's team?
    Mr. Creagh. I'm a member of Governor Snyder's cabinet.
    Mrs. Watson Coleman. Do you know who owns the Karegnondi 
Water Authority? And do you know if there is any relationship 
between any of the principals of that authority to the 
Governor, to his campaigns, or to the party that is represented 
by the Governor in the State of Michigan?
    Mr. Creagh. I have no such knowledge of that.
    Mrs. Watson Coleman. Okay.
    Finally, Mr. Beauvais, what is the most that you could have 
done as a department of EPA to correct this problem had you 
responded in a timely and sufficient manner? What is the extent 
of your authority? What could you have done?
    Mr. Beauvais. Congresswoman, that's an excellent question, 
and I think that's exactly what we need to take a look at right 
now.
    The EPA needs to look at--the EPA was working with MDEQ to 
try to get it to do the right thing. But the questions that we 
need to ask are, at what point in time should the EPA either 
have forced MDEQ to do the right thing or provided the public 
directly with information?
    Mrs. Watson Coleman. That is my question.
    Mr. Chairman, if I just might explore this 1 second?
    Chairman Chaffetz. One more, yes.
    Mrs. Watson Coleman. What do you mean when you said should 
EPA have forced the situation? What could EPA do within its 
authority that could have forced the situation?
    Mr. Beauvais. I don't want to speculate with regard to the 
specific facts and specific timelines. I do recognize that EPA 
has emergency response authority under the Safe Drinking Water 
Act.
    Mrs. Watson Coleman. Thanks. And for the record, I wanted 
it noted that you didn't answer my question.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Duly noted.
    We will now recognize the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Beauvais, in December of 2000, EPA put out this report 
on America's children and the environment. And on page 41, it 
says there is no demonstrated safe concentration of lead in the 
blood. No demonstrated concentration, none.
    Is that still the EPA's opinion?
    Mr. Beauvais. There is no safe level of lead exposure.
    Mr. Palmer. All right.
    Following up on questions that have been asked by several 
members about the lead and copper rule, the last time it was 
updated was 2007. Prior to that, it was 1991. The Safe Drinking 
Water Act requires that the lead and copper rule be updated at 
least every 6 years. Can you explain to me why we're delaying 
this out to 2017, possibly 2018?
    Mr. Beauvais. The current process involves soliciting 
advice and input from our National Drinking Water Advisory 
Council, which includes representatives----
    Mr. Palmer. Mr. Beauvais, you had an EPA official put out a 
report about what was going on in Flint, Michigan. You didn't 
need to solicit anything else. You could've acted. You've got a 
roomful of people here now who have been impacted because of 
it. So what are you waiting on?
    Mr. Beauvais. We are not waiting. And I want to emphasize 
that the revisions to the rule, while very important, are not 
the primary issue with regard to the Flint situation.
    Mr. Palmer. I understand that, but I'm just--look, 
following up on Mr. Mulvaney's question about reporting to the 
CDC, there's a report, 2014, of the counties that have elevated 
lead levels. Of the top 10, number one and number three are in 
Alabama. I don't know of anything that the EPA has done on 
that.
    Does the EPA get the data from the CDC and act on it?
    Mr. Beauvais. I would expect that the EPA has access to the 
data from CDC.
    Mr. Palmer. I didn't ask you that. I'm sure you've got 
access to the data. Do you act on it? Because these aren't the 
only kids in here that are impacted by lead levels. So do you 
act on it?
    Mr. Beauvais. Absolutely. Blood lead levels are affected by 
multiple sources of lead, including lead in paint and lead in 
soil. And the EPA has programs, along with our State partners, 
that address all these issues. Lead in drinking water also is 
important.
    Mr. Palmer. Let me direct something to Mr. Edwards.
    Mr. Edwards, it appears to me that the irony of this is the 
EPA wants to regulate everything. You know, they want to 
regulate ditch water and puddles in backyards. Yet, in Georgia, 
they had a toxic spill; they initially denied responsibility 
for it. You had another EPA whistleblower, Dave Lewis, one of 
your top scientists, who revealed that the EPA was involved in 
this, released an enormous amount of toxic material into the 
groundwater, into the creek, including lead, and EPA tried to 
cover that up.
    What do you know about that, Dr. Edwards?
    Mr. Edwards. Nothing. I know David Lewis and I respect him, 
but I don't know the specifics of that case.
    Mr. Palmer. Well, the specifics of the case is that the EPA 
violated their own rule on releasing lead into groundwater. And 
this blows my mind. You've got people whose lives are going to 
be--I mean, kids whose lives are going to be affected into 
adulthood because of this. It's not just a Flint problem. This 
is across the board.
    I can't remember who it was that made this point, but the 
EPA has failed in its responsibility. It's lost credibility. 
And this problem, I think, it's beyond--I mean, it's not just 
the EPA. There's malfeasance at EPA. I think there's problems 
at the State level, at the local level.
    And as it has been pointed out, as Mr. Mulvaney pointed 
out, I'm not so much interested in the blame. And you have to 
figure out where the problem is before you fix it. But my 
interest is in fixing the problem, make sure that we don't ever 
have to have another group of people come in here with their 
children, in front of this committee or any other congressional 
committee, to try to get the government to do what it's 
supposed to do.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentlewoman from the Virgin 
Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman, thank you, Mr. 
Ranking Member, for the opportunity to speak with these 
witnesses today.
    I first want to let the people of Flint, Michigan, know 
that you have my and my constituents' heartfelt condolences on 
what's happened and the devastation that's going to occur to 
you all in the days--in the years moving forward.
    A few days ago, the Boston Globe ran an article that 
advocates that Flint and its tainted water epitomizes the worst 
kind of environmental racism at the hands of government 
agencies. That conclusion may be true, but what is happening in 
Flint is really just symptomatic of what is happening in 
economically disadvantaged neighborhoods all across America 
regardless of the race of the inhabitants. It continues to 
happen because America tolerates environmental hazards and 
polluting of the poor and people of color every day.
    The lead and other contaminants in Flint water is just one 
kind of environmental hazard. For many other economically 
challenged communities, toxic chemicals are stored in nearby 
facilities or used abundantly in manufacturing plants.
    Everyone appears to be shocked and surprised by what has 
happened in Flint, Michigan. Unfortunately, it's really 
unfortunate, but I'm not shocked at all. I'm not shocked 
because this is par for the course. This is business as usual 
in America. It's unfortunate and a travesty that we have crises 
like these occurring around the country every day, whether it's 
toxic drinking water, toxic land, subhuman tenements, crumbling 
schools.
    For the most part, the common denominator is communities 
that are majority minority, low-income, socioeconomically 
challenged areas. That's the common factors in most of those 
places where we find that. That's the common denominator in 
Flint, along with other places. Eleanor Holmes Norton talked 
about it in D.C certain Americans don't count for much.
    Governors, Federal agencies, State emergency managers want 
to wag their fingers at towns for telling them that they don't 
manage their money properly and bring overseers over them who 
don't want to expend the money in the right manner to support 
those areas.
    Unfortunately, this Congress is the same. We create select 
committees and drive all kinds of important people to testify 
over issues that they think are important--that they think are 
important. Not to disparage or make light of the gravity of the 
incident, but this Congress created the Benghazi Committee over 
the death of four Americans. That committee has spent nearly $6 
million to investigate that, but we can't get the Governor of 
Michigan at this hearing to give responses for actions that are 
going to affect 9,000 children. That's a shame. And that's 
business as usual.
    But I want to talk about the money that was spent and where 
that money was spent.
    Mr. Creagh, there are many people in the Michigan State 
government that could have stopped this tragedy from occurring, 
and despite the fact that they oversaw and contributed to this 
tragedy, Governor Snyder continues to place them in positions 
of increasing responsibility.
    Let's take the emergency manager as an example. Mr. Creagh, 
did you know that Mr. Earley was paid $180,000 for doing his 
job as the emergency manager?
    Mr. Creagh. I did not.
    Ms. Plaskett. I have an article here in a Detroit newspaper 
that talks about that.
    During Mr. Earley's tenure, tens of thousands of men, 
women, and children were exposed to extremely unhealthy levels 
of lead. Yet Governor Snyder then rewarded him, that same Mr. 
Earley, with the new position of emergency manager of Detroit's 
public school system.
    Mr. Creagh, did you know that Mr. Earley received a salary 
on that job and what that salary was?
    Mr. Creagh. I'm not aware of Mr. Earley's salary.
    Ms. Plaskett. Did you know that he received a salary of 
$221,000, received a promotion and a $41,000 raise for that 
position?
    Mr. Creagh, do you think that Governor Snyder was 
exercising good judgment in promoting Mr. Earley after the job 
he did in Flint's water crisis?
    Mr. Creagh. Mr. Earley's salary is between the Governor and 
himself.
    Ms. Plaskett. I didn't ask you about his salary. I asked 
you whether it was good judgment in promoting him to that 
position.
    Mr. Creagh. I'm not in a position to refer to the 
Governor's judgment.
    Ms. Plaskett. And I think maybe others here would believe 
that, based on his abysmal performance in Flint, do you think 
he deserves to be appointed to another job that involves taking 
care of the health and safety of thousands of children?
    So, Ms. Walters, are you aware that Mr. Earley's salary was 
paid for by Flint, the town, not the State of Michigan?
    Ms. Walters. No, I was not.
    Ms. Plaskett. That it's your tax dollars that were paying 
for him to do the job that he did on those children.
    So Governor Snyder, for reasons only he knows, rewarded Mr. 
Earley for the job he did in Flint with another job that paid 
him $221,000.
    Mr. Chairman, I want to thank you for your attempt to 
subpoena Mr. Earley to appear here today. And I'm going to ask 
you to continue your attempt to enforce that subpoena and that 
Mr. Earley, along with the Governor, will appear in front of 
this committee in another hearing in short order.
    Thank you for the time.
    Chairman Chaffetz. Thank you.
    I now recognize myself for 5 minutes.
    In Congress, we have obviously chief jurisdiction on the 
Federal Government, the EPA. We have a more limited role, by 
the very nature of tax dollars and accountability, at the State 
level. There's still a role, but nevertheless it's still less. 
Our focus, many times, on the Federal component is one 
primarily of jurisdiction, dollars, power of the purse. That's 
why I feel so adamantly about it. It is not to excuse what 
happened at the city or at the State level. But the remedy on 
how to deal with this often is at the city, county, or State 
level, and we will still look at those things.
    And, clearly, there is no doubt in anybody's mind that 
there were dramatic failures at the city level, at the State 
level. And there is a complete case to be made about the need 
to look at what happened between that State emergency manager, 
the Governor's office, the Michigan Environmental Quality. I 
understand that. But a lot of our focus will naturally be upon 
the EPA because of the nature of it being a Federal entity and 
this being the United States Congress.
    With that said, we've had something festering at the EPA 
for a long period of time. And often where there's smoke, 
there's a bigger fire. Remember, it was Gina McCarthy, the EPA 
now-Administrator, who was overseeing a guy named John Beale 
who was dealing with air quality. It's one of the few times the 
administration actually prosecuted, and he had to serve time in 
jail for fraud. She got a promotion. Now she's in charge of the 
EPA.
    Here's my question for Mr. Beauvais. And this is my 
frustration. You've said that it's a high priority, but what 
evidence do you support to us or can you give to us that this 
is a high priority for the EPA?
    In July of last year, we highlighted the problems in Region 
5. We talked about Susan Hedman. We talked about the sexual 
misconduct. We had three people who stepped up and said we've 
got a problem here. Was anything done about that that you're 
aware of?
    Mr. Beauvais. I'm not privy to personnel discussions and 
matters within EPA 5----
    Chairman Chaffetz. Nothing. She just retired--no 
consequence--on Monday.
    And so my point is, when we have these discussions and 
hearings and you've got three whistleblowers, good, decent, 
hardworking, patriotic people saying we've got a problem here, 
you have sexual misconduct, you have retaliation, guess what? 
It bleeds over. And so then you have a good person, like Mr. 
Del Toral, who steps up.
    What's the lesson that is learned?
    Mr. Beauvais. I actually think that Mr. Del Toral is 
representative of the vast majority of EPA employees, who are 
incredibly dedicated----
    Chairman Chaffetz. But you're here testifying that it's a 
high priority. He brings that up--he went to her house in 
February, correct? And it isn't until January of the 
following--it took a year from the time he first showed up at 
Ms. Walters' home till the EPA actually issued a directive, 
correct?
    Mr. Beauvais. EPA was working with MDEQ to try to get them 
to do the right thing. Ultimately----
    Chairman Chaffetz. They were suppressing those reports. 
They were telling they were preliminary.
    Mr. Edwards, what did you see as you looked at those 
documents. Were they trying to do that, or were they trying to 
suppress the evidence?
    Mr. Edwards. EPA was aiding, abetting, and emboldening 
MDEQ's coverup of this problem.
    Chairman Chaffetz. How do you respond to that?
    Mr. Beauvais. I think that the specific facts of those 
matters ought to be looked at by the IG----
    Chairman Chaffetz. We're looking at them right here today.
    Mr. Beauvais. I understand----
    Chairman Chaffetz. You're in charge of water quality. He's 
telling you that they aided and abetted the making sure that 
that information didn't get out. Why?
    Mr. Beauvais. My understanding is that they were working 
with MDEQ to try to get action taken on the issue, but it----
    Chairman Chaffetz. That's not what the evidence shows. 
That's not what those documents show. They kept saying that 
they were preliminary, you shouldn't rely on that data, don't 
look at that data.
    Is that correct, Mr. Edwards?
    Mr. Edwards. That's absolutely correct.
    Chairman Chaffetz. What's your response to that?
    Mr. Beauvais. I can't speak for the specific statements 
that were made in those communications. My understanding is 
that EPA was working closely with MDEQ to try to get them to do 
the right thing; that in July they agreed the corrosion control 
needed to be applied; that in August they sent a letter to the 
city saying the corrosion control should be applied; and that--
--
    Chairman Chaffetz. Okay. Let's----
    Mr. Beauvais. --the city announced in September that 
corrosion control would be applied.
    Chairman Chaffetz. Let's talk about the right thing to do. 
What's the number-one thing you do if you're trying to warn the 
citizens, let the citizens know? What's the number-one thing 
you should let them know?
    Mr. Beauvais. I think that that's exactly the right 
question to ask.
    Chairman Chaffetz. I'm asking you that question. And I'm 
glad you agree it's the exact right question. You're from the 
EPA; you're in charge of water quality. I want to know what the 
answer is.
    Mr. Beauvais. It's important for EPA to go back and 
understand all the facts----
    Chairman Chaffetz. No, it's not. No, it's not. It's 
important for the EPA to tell the public that they're poisoning 
their kids if they drink the water.
    Mr. Beauvais. I absolutely agree, and----
    Chairman Chaffetz. Then why didn't they do it? They sat on 
that for almost a year.
    Mr. Beauvais. Administrator McCarthy issued an elevation 
policy this January emphasizing----
    Chairman Chaffetz. This January. They had it for nearly a 
year. The EPA Administrator went to Flint yesterday. The EPA 
first went to her home in February of last year. Why did it 
take a year?
    Mr. Beauvais. I can't answer that question. All I can say 
is that they were working with----
    Chairman Chaffetz. Then why don't we fire the whole lot of 
them? What good is the EPA if they're not going to do that?
    If you're not going to telling the citizens--my daughter, 
okay, she's getting married. I get emotional about that. She's 
moving to Michigan. Are you telling me that the EPA, knowing 
that they're putting lead in--there's lead in the water, that 
they're not going to tell those kids?
    Because that's exactly what happened. They knew that. Mr. 
Del Toral knew that, didn't he? When did he know that?
    Mr. Beauvais. Mr. Del Toral did testing on Ms. Walters' 
water in early 2015 and knew that the lead levels were 
incredibly high in her water.
    Chairman Chaffetz. And when was that?
    Mr. Beauvais. I believe that it was in February of 2015.
    Chairman Chaffetz. Yes. Why wasn't that made public?
    Mr. Beauvais. I don't know the answer to that question. I 
think that they----
    Chairman Chaffetz. You can't come to a hearing before 
Congress and be in charge of water quality for the EPA and not 
know the answer to that question. You can't. You've got to know 
why that is.
    And don't tell me that some inspector general is going to 
come look at that. That ain't good enough. We keep hearing 
that. That ain't good enough.
    The crying shame here is, when they knew there was a 
problem, they should have told the public. They should have 
told DEQ. They should have told the experts. And they should 
have been out there to warn people like Ms. Walters.
    General Motors knew about this and stopped using the water, 
for goodness' sake. But you know what? The families don't have 
the resources that General Motors does.
    Mr. Edwards, when do you think they knew, and when should 
they have actually made that public?
    Mr. Edwards. I think they should have made it public as 
soon as Ms. Walters figured out that her child was lead 
poisoned and they were not following the Federal law. But even 
if you excuse that, when Mr. Del Toral put his professional 
career on the line to have that memo written and gave it to 
LeeAnne, when they started covering up at that point, I really 
personally believe it was criminal.
    Chairman Chaffetz. And that's why we will continue to 
investigate this.
    One other thing. And I appreciate the generosity of the 
time. Why has the EPA failed to fulfill the FOIA request? This 
committee has jurisdiction on FOIA. We have done a reform 
package that Mr. Cummings was very involved with. When Mr. 
Edwards, he works for--for his life on studying water. We need 
good people like Mr. Edwards to be able to access the data and 
the information of the EPA. Why can't we fulfill these FOIA 
requests? Because you are supposed to do it in 21 days, as Mr. 
Meadows pointed out, and it has been 9 years. When is he going 
to get that information?
    Mr. Beauvais. I don't know the specifics with regard to the 
FOIA requests, but as I said before, I will take this back and 
ensure that it's a high priority.
    Chairman Chaffetz. I think that's a fair answer for this 
question. I appreciate the EPA responding to us in that regard 
in a timely manner. But we have to know the answer to that 
question. You can't play hide the documents. Here, I have gone 
way past my time. We have other members who need to ask 
questions.
    So let me yield back, and we will go to Mr. Clay for 5 
minutes.
    Mr. Clay. And thank you, Mr. Chairman.
    If Governor Snyder was here, I'd sure like to ask him if 
the water was toxic in Grosse Pointe instead of Flint, would 
you have denied it for a year? And would you have stood by and 
stonewalled while those children were poisoned with 
neurotoxins?
    Mr. Chairman, we need to use that same passion that we just 
heard from you to get Governor Snyder here and get him on the 
record so that we all know what was going through his 
administration and through his mind to allow this to continue. 
This is a pattern. This is a pattern in Michigan, and as Ms. 
Plaskett said, it's a pattern all over this country, how 
communities of color as well as low- and moderate-income 
communities are victims of environmental injustice.
    You know, and I represent St. Louis, so there are ample 
examples of how this environmental racism plays out, how we had 
a facility next to a Boys & Girls Club where 1,000 kids were 
exposed daily to PCBs left by manufacturing plants, to lead, 
and overexposure to other toxins.
    Let me ask Mrs. Walters. I am so sorry that you and your 
family, like so many of your neighbors, are living through this 
manmade nightmare. As a father, I can well remember the fear 
and anger I felt when my own daughter tested positive for lead 
at a very young age. And that was a long time ago, and she is 
doing fine today. But I want to ask you first: How are your 
children?
    Ms. Walters. My children are dealing with health issues. 
The one with the lead poisoning has a compromised immune 
system, and he has only gained 3-and-a-half pounds in the last 
year.
    Mr. Clay. So you believe they have suffered serious 
impairment.
    Ms. Walters. Yes, sir. He is still dealing with the anemia, 
and he has developed speech issues.
    Mr. Clay. Let me ask you, and I'm going to ask--this is for 
the entire panel. How do we repair the damage that has been 
caused by the gross negligence of the State of Michigan in 
protecting its citizens? How do we repair the damage to your 
children, to your neighbors, and even possibly to you? How do 
we do that, Ms. Walters? Let's start here, and I want to go 
down the table.
    Ms. Walters. First, we take responsibility for what's 
happened. Then we change the laws and quit talking about the 
NDWAC. The NDWAC is not there to represent the people that the 
EPA is getting their guidance from. They are there to represent 
utilities and protect utilities. Let's get that on the record 
right now. There is only one person that's been on the NDWAC 
fighting against what's being represented there. And that's why 
I keep saying, if what the NDWAC is suggesting is adopted by 
the EPA, it will, what happened in Flint will happen throughout 
the United States. There is a very big possibility.
    Second of all, we need to make sure that the children, and 
all the people in Flint are taken care of healthwise. I know my 
children are going to need help with that. I know other 
children in the city are going to need help with that--and not 
just children under the age of 6. I know a 15-year-old who has 
severe liver issues now, who has lead poisoning; a 44-year-old 
man who had an eye stroke because of problems with his blood 
pressure with his lead poisoning. So doing right for the people 
is going to be making sure we are taken care of and making sure 
we get clean water, get the pipes replaced once we have the 
science behind it to see exactly what we need to do to get the 
replacement done.
    Mr. Clay. Thank you for that response.
    Mr. Edwards, how do we repair the damage, the physical and 
the mental health effects of what has occurred?
    Mr. Edwards. Well, the fact of the matter is that the 
damage from lead is irreversible. That's why we have to work on 
primary prevention and make sure nothing like this ever 
happens.
    That's why we have these laws, but we can take steps to 
ameliorate the harm and these are being proposed by Dr. Mona 
Hanna-Attisha and Hurley and the local medical community.
    Mr. Clay. Yeah.
    Mr. Edwards. And we support those recommendations 
wholeheartedly.
    In terms of the trauma of the citizens of Flint, that's 
going to take a lot longer to repair because they have been 
fundamentally betrayed by the very agencies who have been paid 
to protect them, and we need to get trustworthy people at these 
agencies doing their job before we can even talk about 
restoring trust of the people of Flint.
    Mr. Clay. Thank you.
    Mr. Creagh, anything to add how we can help the people of 
Flint.
    Mr. Creagh. Both of the individuals to my left said it 
well. We have to accept responsibility. We have to change so it 
never happens again. We have to work with the community, 
because this is a crisis. It's a tragedy in Flint. And as you 
said, very eloquently, if it was your child or my grandchild, 
it's not acceptable.
    Mr. Clay. It's not acceptable.
    Mr. Beauvais.
    Mr. Beauvais. I agree that it's critical, but we, first of 
all, do everything that we can to help the citizens of Flint 
get the drinking water system back online and also to help 
ensure that resources get to the community to meet the 
recommendations of Dr. Mona Hanna-Attisha and others with 
regard to the kids and the folks in that community.
    Going forward, we also need to work on the issues that we 
have discussed with regard to strengthening the rules and 
strengthening implementation of the rules. And we will be 
listening to all stakeholders as we work on that process.
    Mr. Clay. And I know my time is up, Madam Chair, but this 
should never happen again in this country. All of--this was all 
about the sake of austerity and saving a few dollars. And this 
is tragic.
    I yield back.
    Mrs. Lummis. [Presiding.] I thank the gentleman and 
recognize the gentleman from Wisconsin, Mr. Grothman, for 5 
minutes.
    Mr. Grothman. Thank you.
    Mr. Beauvais, this is for you. Mr. Del Toral was--we have 
had previous hearings showing we have big problems with this 
agency. Apparently, a lot of time servers who, not only with 
the public but with, you know, their fellow employees, have 
displayed a tremendous lack of caring and compassion for 
people. Mr. Del Toral was ringing the alarm here over a year 
ago. He was sending out emails. Could you let us know how many 
other employees in the EPA you think Mr. Del Toral had alerted 
that the children of Flint were being poisoned?
    Mr. Beauvais. I don't have precise information on the 
number of employees that were privy to the information.
    Mr. Grothman. He was sending out emails, wasn't he, to 
people?
    Mr. Beauvais. My understanding is, yes. I don't want to 
give inaccurate information with regard to how broad that 
circle was.
    Mr. Grothman. Dozens, 30, 50?
    Mr. Beauvais. I don't know the answer to that.
    Mr. Grothman. Okay. Well, why don't we see if we can get 
that answer eventually? I'd like to know how many employees in 
the EPA knew that the children of Flint were being poisoned and 
didn't care.
    The next question for Ms. Walters. Like the other 
Congressmen, I would like to thank you for all you have done. 
Can I ask your educational background? Do you have any special 
training that allowed you to seem to expose this thing that 
none of the battalions at EPA could get around exposing?
    Ms. Walters. I have my degree as a medical assistant. And I 
just decided to start researching and educating myself about 
water, and I had to figure out what was going on after I was 
publicly humiliated by the State--by Mike Prysby at the MDEQ 
and Jerry Ambrose in a public meeting with the citizens.
    Mr. Grothman. Shows one more time, having a lot of heart is 
more important than having a lot of worthless college degrees. 
So thank you very much for what you have done.
    Next question for, I guess I'll ask--well, maybe Mr. 
Edwards will know the answer to this. I want to find out 
exactly, physically, how many people in each of the three 
relevant agencies--and we have got the city of Flint; we have 
the State of Michigan; the EPA--physically when these results--
or presumably they test the water in Flint regularly. Right?
    Mr. Edwards. Right.
    Mr. Grothman. And how often do they test it? Once a week, 
once a month?
    Mr. Edwards. Once every 6 months.
    Mr. Grothman. Okay, and when was the first time that bad 
tests were available?
    Mr. Edwards. Well, very clearly in early 2015, in my 
opinion, they actually failed the lead and copper rule, but 
they took steps to cover up the high lead. One of the ironies 
of this is that as National Guard's people walked the streets 
of Flint and distributed bottled water, there has never been an 
admission that Flint failed the lead and copper rule. So if you 
look at what MDEQ did and the fact they didn't sample the high-
risk homes and they invalidated samples, it just shows what a 
joke this regulation is.
    Mr. Grothman. Okay, and at that time, who would have known 
the problem? Would the city manager have known? Would Michigan 
Environmental Quality--I assume they knew. The EPA knew. Did 
they all know by that time?
    Mr. Edwards. There were certainly many employees at EPA and 
MDEQ who knew they were not following the Federal corrosion 
control law. That should be enough, one would think. You 
wouldn't think you would have to wait around for lead and water 
to spike and lead in children's blood to spike before anything 
is done.
    Mr. Grothman. Okay. So they should have been ringing the 
alarm over a year ago. They all knew, and they all just--it's 
not in my city, so what do I care, kind of.
    Mr. Edwards. You have to ask them. I don't know.
    Mr. Grothman. Okay. That's it.
    I will yield the rest of my time.
    Mrs. Lummis. The gentleman yields back.
    The chair recognizes the woman from New Mexico, Ms. Lujan 
Grisham.
    Ms. Lujan Grisham. Thank you, Madam Chair.
    And clear to me, in addition to the really disturbing 
nature of the issues that we are trying to identify what we 
could do to prevent them clearly in the future, I think there's 
plenty of blame to go around everywhere because the whole 
aspect here is to have as many eyes on these sorts of 
situations as possible. But I'm going to actually go back and 
focus on the States. I was the former secretary of health in 
New Mexico, and we actually had an arsenic problem in water in 
a northern county. And the second we know there are elevated 
levels, whether that's the environment department's core job or 
whether that is the local, the municipality government's job, 
we provide that information and that data and set up a public 
health protocol and then make sure all of our other partners 
are clearly doing their jobs, because at the end of the day, 
everybody in government's core job is the public health and 
safety of the citizens that you represent and are, frankly, 
sworn to protect.
    So I want to talk a little bit about the pediatrician who 
was seeing elevated levels of lead. Dr. Mona Hanna-Attisha, who 
I think other folks have identified as the Flint pediatrician 
who really demonstrated, by virtue of the patient data that she 
had, that we are seeing pediatric youth being poisoned 
throughout the city. And trying to get data to identify the 
source, make sure that you can then correlate that data, so you 
have got a plan of action that then protects everybody else, 
that's exactly what you need to do. And my understanding is, is 
that this pediatrician went to the Department of Health and 
wanted their data about what was going on.
    And, in fact, I have here, Madam Chair, emails from the 
Department of Health that I want to provide and ask for consent 
to have them as part of the record. The email communications 
from the Governor's Office to the Department of Health docs and 
public health employees is not to share any data until they 
have a press conference, which looks to me by virtue of the 
information I have in front of me, that they are making 
political decisions before they make appropriate decisions for 
the public health of the community.
    How many more kids were drinking water during the time they 
prepped for a press conference? How many more pediatricians 
were without enough sufficient information? I want to just also 
tell you that the Governor's communication plan, this is what 
it states specifically: The data not be shared until the press 
conference starts at 1:30.
    Now, the coworkers responded that they will wait and that 
everyone was waiting for permission to provide, to give the 
data.
    So, Mr. Creagh, can you explain to me why the Governor's 
Office is instructing their independent medical personnel and 
public health personnel to refrain from giving data to a 
licensed pediatrician who was working to provide care to 
patients in her community related to a press conference, 
please?
    Mr. Creagh. I can't speak for the director of the 
Department of Health and Human Services. I can say that Dr. 
Mona Hanna-Attisha did some great work and zeroed in on some 
areas, and that that drove the decisionmaking and identified 
the problem. And we appreciate that.
    Ms. Lujan Grisham. Well, isn't it true that in all of the 
States' departments of health you have got a team of 
epidemiologists whose job it is when anyone identifies any 
issues of this nature, that it is more like a SWAT team. They 
are in those communities. They are identifying a source. They 
are working together. We help fund those initiatives in all of 
the States. And yet we have a political communication that you 
are new; you can't really state. But isn't it true that that's 
typically the job of those departments of health to actually 
not just provide the data but then engage directly to address 
the problem? Why weren't they engaged? Why didn't the 
Governor's Office immediately demand that the epidemiology team 
in your public health or chief medical officer be on site? That 
would be against, as I understand it, that protocol for all 
States.
    Mr. Creagh. So Michigan has very similar protocols to the 
State that you were at, where there's epidemiologists and 
healthcare professionals that respond to those type of public 
health emergencies.
    Ms. Lujan Grisham. So how do you rebut that this was 
purposeful then in nature, given that those protocols that you 
are familiar with as someone new and I'm familiar with, without 
being a public health doc or an epidemiologist--that that's 
exactly why we have those resources in place so that, A, we 
hope to prevent these situations, but by God, when we know 
about them, we immediately engage to prevent any other harm or 
damage.
    Mrs. Lummis. The gentlewoman's time has expired.
    The emails will be admitted. Without objection, so ordered.
    Ms. Lujan Grisham. I yield back.
    Mrs. Lummis. The chair will now recognize herself for 5 
minutes.
    My questions are for Ms. Walters and Mr. Edwards.
    Mr. Edwards, your questions will come last and will be very 
open-ended.
    Ms. Walters, I want to talk to you about Mr. Del Toral. And 
when did you meet him first?
    Ms. Walters. The first time I met him in person was in 
April of 2015.
    Mrs. Lummis. And could you tell me what happened at that 
meeting?
    Ms. Walters. He had come into my home because he was being 
told that my plumbing was the problem, my internal plumbing. So 
he came to verify that all of my plumbing was plastic; and to 
check out the home, check out the area, take pictures; and 
spoke with us about what was going on.
    Mrs. Lummis. What happened to him and the information he 
derived from that discussion thereafter?
    Ms. Walters. It went on for him to come back out on another 
day to do sampling in May of 2015 at other people's homes, my 
neighbor's homes as well. And from there, became the report 
that came out in June.
    Mrs. Lummis. And after the report, was his view of the 
situation credited, and was action taken?
    Ms. Walters. Everything that was in that report was 
everything that I had told him that had been going on plus his 
findings with his own testing with him being an expert in his 
field. So when he called me and asked me if he could use my 
information for this report, I said, yes, and I asked for a 
copy. When I saw it in black and white, there's a difference 
living it and seeing it in black and white. That is why it was 
given to the ACLU and made public. Those people did have a 
right to know. From that point, he was then no longer allowed 
to have association with me or anybody else in Flint.
    Mrs. Lummis. Not allowed by who?
    Ms. Walters. By the EPA.
    Mrs. Lummis. What happened to him after he was not allowed 
to have association with you, or do you know?
    Ms. Walters. I don't know. You have to ask Mr. Del Toral. I 
just know that--what I have been told.
    Mrs. Lummis. Mr. Edwards, when, how, and--when and how did 
you gain access to that information?
    Mr. Edwards. I first knew about this when Mr. Del Toral 
told me that there was a problem in Flint. That turned out to 
be the understatement of the year. But he alerted me to Ms. 
Walters and her family's health issues, and asked me to sample 
with LeeAnne, and so I did. And I provided my data to his 
report as well because I thought it would be best if EPA 
handled this. He was obviously the foremost expert on the lead 
and copper rule in the United States, and one would assume when 
he writes a memo saying that Flint is breaking Federal law, 
that there's a public health threat, that there's hazardous 
waste levels of lead coming out of Ms. Walters' home and 
there's a lead-poisoned child, that something would be done 
about it. So I gave him my data, and when I saw the report, I 
assumed that the appropriate authorities would act to protect 
Flint's population.
    Mrs. Lummis. When they didn't act, what did you do?
    Mr. Edwards. I didn't know what happened for quite some 
time until MDEQ bragged to Ms. Walters and laughed at her, and 
she reported back to me that quote-unquote, ``Mr. Del Toral had 
been handled.'' And it was very clear that an agreement had 
been reached of some sort between EPA and MDEQ that would let 
MDEQ have their way with Flint's children.
    Mrs. Lummis. Have their way in what way?
    Mr. Edwards. That they were not going to install corrosion 
control. They had no intention to do it. There's many emails 
that show that they were waiting until this new pipeline came 
on next year, and they thought it was a waste of time to do 
anything to treat the water. When we got involved in August, as 
a matter of fact, an MDEQ email said: Shouldn't someone tell 
those folks from Virginia Tech, we are switching to the 
pipeline next year so they don't bother wasting their time on 
this issue?
    Mrs. Lummis. I found--I find this so astounding, but 
unfortunately, not unique. And this has been referred to as a 
racial issue. I can tell you in my own State, there was an 
administrative order on consent for 17 years in the refinery 
that I live right next to to put in a slurry wall to protect 
the water that our cattle were drinking. And for 17 years, that 
refinery didn't turn a shovel, and neither the State nor the 
EPA made them.
    This is not unique. This is a situation that occurs time 
and again. And I would implore agencies: Listen to people. 
Don't just listen to companies.
    My time has expired.
    And the gentlelady from Texas, Ms. Sheila Jackson Lee, is 
recognized for 5 minutes.
    Ms. Jackson Lee. Let me thank the chair and the ranking 
member for again upholding their authority and upholding, if 
you will, the authority of the United States Congress, Mr. 
Chaffetz and Mr. Cummings, for their bipartisan approach to 
this.
    One cannot help--I sit on the House Judiciary Committee--
but be nothing but angry as a mother and as an American. And I 
want to say to this mother that is here: We have already called 
you a hero of which you would wish not to be, because you have 
a child that has been impacted. As I sit here today, the 
memories of a Jim Jones who gave a poisoned concoction to 
children causes me to say that there is a Jim Jones in Michigan 
who gave a poisoned concoction to children and their families. 
If any of us should demand accountability, we should.
    I want to ask Mr. Edwards before I pursue a questioning of 
Mr. Creagh: Mr. Edwards, you have given a recounting of just 
not putting phosphate in water. And I know that you are not a 
judge or a jury, and I know you are a man that believes in the 
Constitution, but if you had to reflect, would you say that 
there were criminal activities or results of this inaction?
    Mr. Edwards. If it's not criminal, I don't know what is.
    Ms. Jackson Lee. I join you in that questioning, and I have 
asked the Department of Justice to investigate individuals that 
may be engaged criminally to hold them criminally responsible 
for the actions in Flint, Michigan.
    Let me raise a question--were you trying to finish your 
sentence, Mr. Edwards? Because I have your whole series here.
    Mr. Creagh, in your statement, you claim and I quote: 
``Regardless of the testing schedule allowed by the EPA rule, 
in hindsight, when the lead levels began to rise, corrosion 
treatments should have been required from the MDEQ,'' end your 
quote. However, rather than taking full responsibility for this 
decision, you then criticized the EPA for failing to provide a 
legal interpretation of the lead and copper rule until November 
2015. You said: ``My observation is that the EPA did not 
display the sense of urgency that the situation demanded. This 
is underscored by conversations started in February 2015 
regarding implementation of the Federal lead and copper rule. 
Between February and the end of September 2015, there were 
multiple email exchanges and conference calls between the MDEQ 
and EPA. Yet when the parties were unable to come to a 
consensus on its implementation in July 2015, the EPA failed to 
provide the legal opinion by the MDEQ until November 25.''
    As I present this question, let me again thank the chairman 
and ranking member. Let me thank the former Mayor Lawrence for 
her leadership, and let me say to the newly elected mayor, 
Mayor Weaver, let me applaud you for you were not--this was not 
on your watch and not on your clock, but I'm committed as we 
all are to you that the fix will come on your watch.
    Mr. Creagh, are you telling this committee that the reason 
that the MDEQ failed to require corrosion control treatments in 
Flint water was because EPA did not give you a legal 
interpretation stating you had to do that? Where was your own 
moral and fiduciary responsibility?
    Mr. Creagh. I'm not stating that.
    Ms. Jackson Lee. What are you stating, sir?
    Mr. Creagh. I'm not stating that the only reason why there 
is not corrosion control was because of the lack of a legal 
opinion from EPA.
    Ms. Jackson Lee. All right, sir.
    Mr. Creagh. My testimony said that we should have at the 
latest, once the first round of 6 months testing came, we 
should have taken some action.
    Ms. Jackson Lee. So you are not taking the position that 
you could not act as an independent State as the 10th Amendment 
says: What is not left to the Federal Government can be left to 
the State. And the safety and security of your Michiganders, I 
would assume that you would be concerned about. Is that 
correct?
    Mr. Creagh. We are concerned about the Michiganders.
    Ms. Jackson Lee. And, in essence, there was a malfeasance, 
or let me just say that there was an inaction in not doing what 
was supposed to be done. Is that correct, sir?
    Mr. Creagh. In hindsight, I think we all share in the 
responsibility for the crisis in Flint water.
    Ms. Jackson Lee. Well, let me say that those who were 
closest to it--but let me just say that it strains belief--is 
your testimony, again, that the aging lead service lines and 
all that needed to be done was at the feet of the Federal 
Government? So I just want to hear you again. It was not in 
totality at the feet of someone other than the authorities in 
Michigan, in this instance the State?
    Mr. Creagh. I believe we all share responsibility in this 
crisis.
    Ms. Jackson Lee. Well, let me say this. You are now in the 
midst of the Federal Government. We are all saying we want to 
help. Let me ask this question, and let me thank MSNBC Rachel 
Maddow, who took her show to Flint, Michigan, and gave us all 
even an added inspiration of change. And let me thank pastors 
in my community, who are eager to be there and help, and the 
Red Cross. But the point is, is that we know there is a figure 
of $50 to $60 million dollars. We know that there needs to be a 
change in the pipes that lead to homes and the pipes in homes.
    Can you say because of the moral authority vested in you as 
the State government and the need to give a response, that you 
would engage and use or argue--or the Governor, who is not 
here--there should be an empty chair there--but he should spend 
the $50 to $60 million to completely overhaul the pipe system 
in the city of Flint? Would you agree to that?
    Mr. Creagh. The commitment from State government is that we 
are in it for the long haul for the citizens of Flint, and we 
will work with our partners both at the city, State, and 
Federal Government to make sure we get it right because no one 
deserves this.
    Ms. Jackson Lee. You are an expert, sir. You are an expert. 
Can you just say that you would be willing to----
    Chairman Chaffetz. [Presiding.] The gentlewoman's time has 
more than expired. Thank you.
    Ms. Jackson Lee. I thank you. Could he answer the question, 
Mr. Chairman?
    Chairman Chaffetz. Thank you. No, we are going to move on--
--
    Ms. Jackson Lee. All right, thank you very much.
    Chairman Chaffetz. No, we are going to move on to Morgan 
Griffith, Representative from Virginia.
    Ms. Jackson Lee. Thank you for your courtesy.
    Chairman Chaffetz. Thank you--is now recognized for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman, and thank you for 
allowing me to participate in this hearing. Ms. Walters thank 
so much for being the first person to make this public and for 
reaching out for help.
    Dr. Edwards, everybody in southwest Virginia and at 
Virginia Tech and all over the region are so very proud to call 
you one of ours. Thank you for the work that you have done. I 
was talking with President Sands of Virginia Tech just a few 
minutes before the hearing started out in the hallway. I did 
not know Ms. Walters at the time. And I was going over your 
resume just saying, you know, this guy, his resume is a wow. 
And she walked up and she said: And he is a wow of a person 
too. What a great endorsement from a mom who reached out to 
protect her kids to a white knight who is willing to be there 
to be able to come in and charge. And I can't tell you how 
proud I am to represent southwest Virginia, particularly, to 
have people in my district of your caliber.
    We may not always agree. I don't have any idea, but I 
recognize somebody who will not be handled, and in the 
mountains of southwest Virginia, those people always get 
respect. And I appreciate that.
    That being said, I do have a few questions that I would 
like to ask. One being up to this point in time, if somebody 
made a complain to me, while I had other battles with the EPA 
that dealt with air or water, I would say: The EPA hasn't said 
there's a problem.
    Am I to take from the testimony here today in your opinion 
that maybe I need to go beyond relying on the EPA when it comes 
to whether or not the water supply in my district has been 
affected?
    Mr. Edwards. I wish I could say otherwise, but events have 
proven--proven you correct.
    Mr. Griffith. I hope that should you know of any issues 
that I need to be looking at in the district, that you will let 
me know about that.
    Likewise, I kind of got the impression that citizens, other 
moms across the country, probably ought to be calling their 
local water supply companies and their local municipalities, et 
cetera, and just asking, are you doing the proper testing? Am I 
correct in that, Dr. Edwards?
    Mr. Edwards. I'm ashamed to say that, yes, you are correct.
    Mr. Griffith. Well, and I appreciate that. I saw your 
written testimony in advance and thought you had some good 
comments about the fact, and this is something we need to do. 
And that is that the rise of institutional scientific 
misconduct is a relatively new phenomenon. Clearly, we do not 
have adequate checks and balances on the power of these 
agencies--and you are referring to the EPA and the CDC when you 
said that--nor do we hold them accountable for their unethical 
actions. And I assume you stand by that. Nothing in this 
hearing today has changed your opinion in that regard?
    Mr. Edwards. No, nothing has changed.
    Mr. Griffith. And I will tell you that I was having a 
conversation. I'm a recovering attorney--I like to joke with my 
friends. I was having a conversation with an attorney friend of 
mine a few days ago--I guess it was last week--who also has 
been involved with the brain injury services of southwest 
Virginia and has previously chaired the Virginia Office for 
Protection and Advocacy, which is an independent State agency 
that tries to take care of folks with disabilities, to protect 
the rights of those with disabilities. He and I were talking 
about this. He indicated to me that he, like you today, have 
expressed that he felt there must be something criminal, that 
it wasn't just a matter of saying you're sorry and fixing it, 
that there were probably people who needed to go to jail, and 
so I couldn't help but think, as listening to the testimony and 
the questions earlier, and Mr. Amash said that he thought it 
was a bad thing or indicated it was bad when the attorney for 
Mr. Earley said it was nonsensical for him to come and testify. 
I suspect that maybe what the attorney meant to say is: You 
have the right to remain silent. Anything you say can and will 
be used against you in a court of law.
    Would you disagree with my assessment of that response by 
his attorney?
    Mr. Edwards. I'm not a lawyer, so I'll stay away from that 
one.
    Mr. Griffith. I appreciate that. I know it has been a long 
day for all of you. I do appreciate the testimony.
    Again, Ms. Walters, appreciate you stepping up.
    Dr. Edwards, thank you for taking your own time, your own 
energy, the resources from your discretionary funds that you 
have spent on this cause. You were not handled by anybody, 
including the Federal Government. And, again, I do respect that 
and appreciate it.
    And, with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will recognize Mr. Cummings, the ranking member, and then 
myself, and then we will conclude this hearing.
    Mr. Cummings. I want to thank all of you for being here 
today.
    And, Mr. Chairman, I thank you again for holding this 
hearing. It's a very important hearing. And I have listened to 
almost every syllable that has been said here today.
    Mr. Edwards, I know that, just based upon what my staff has 
revealed to me, that you--and what I have heard here today, 
that the EPA has obviously not been fair to you. But is that a 
fair statement?
    Come on, I can't hear you.
    Mr. Edwards. I believe that's a correct statement, yes.
    Mr. Cummings. And I'm sure you have a lot of deep hurt, 
disappointment because, obviously, you're trying to do the 
right thing, and you are driven by a passion to make people's 
lives better. Is that an accurate statement?
    Mr. Edwards. Yeah, whatever hurt I have experienced is 
nothing compared to the hurt of the parents of the children in 
this room.
    Mr. Cummings. And that's why I want to get to this 
question. And I have listened to everybody very carefully. But, 
you know, I keep hearing--I hear you, and I guess as a trial 
lawyer, I'm kind of used to kind of really, really listening 
carefully. It seems like you spent a lot of time on the EPA. 
And I want you to be clear. And I will say it 50 million times, 
and I mean it. I want the EPA to be held responsible for 
addressing the things that they are supposed to address. But it 
seems--and help me with this, okay, because I'm just listening 
to you. You don't seem to put too much blame on the State. I 
mean, why is that? Or am I missing something?
    See, and the reason why I gave that whole long statement 
that I just gave is because I know sometimes we can be so upset 
because we have been abused and treated badly, but I want to 
make sure that we are also looking at the whole picture. You 
follow what I'm saying?
    Mr. Edwards. Yes. My perspective on this is the fact that 
these are the agencies paid to protect us. The Michigan 
Department of Environmental Quality and Susan Hedman at EPA as 
the top environmental cop in the region. I have said repeatedly 
that the primary blame for this rests with a few people at the 
Michigan Department of Environmental Quality, without question.
    But in terms of other people in the State, those core 
professionals misled them throughout this whole thing. Mr. 
Walling, in Flint, for example, reached out after reading 
Miguel's memo, as a considerate mayor would, to Susan Hedman 
and said: Is this something I should take seriously?
    And she told him, the cop, the top environmental policeman 
in the region told him: I am sorry this memo ever took place, 
and I will get back to you after I edit and vet it.
    So I--100 percent of the responsibility lies with these 
employees at MDEQ; there's no question. But EPA had the chance 
because of Miguel Del Toral to be the hero here, and Ms. Hedman 
snatched defeat for EPA from the jaws of victory by 
discrediting his memo and standing by silently as she knew that 
Federal law was not protecting Flint's children.
    Mr. Cummings. And as I close, let me tell you the value of 
what has happened here today. What you all have done is given 
us a platform to look further. I mean, you have given us the 
basic information. You follow what I'm saying? Now we have to 
go--you have given names and you have talked about different 
situations, and now we have to go higher.
    And to you, Mr. Creagh, I want to thank you. I know you 
have got a tough job. And I know you haven't--how long have you 
been in that job?
    Mr. Creagh. Since January 4, and it was by choice.
    Mr. Cummings. Wow. But, again, I hope that--I know you are 
in the cabinet, so that means you have the Governor's ear. I 
hope that the Governor will understand that these are people 
who are suffering and that the $30 million that he has asked 
for, I guess yesterday, and then there is, I guess, the $28 
million that was already signed--is that right, or is that all 
part of the same thing?
    Mr. Creagh. No, sir. We have actually, there is almost $38 
million that has been allocated already to this, and then this 
would be on top of that. And then I would certainly not preempt 
the Governor's budget, but understand that there's more to be 
done.
    Mr. Cummings. Yeah, I understand. I'm not trying to get you 
to do that. But I would ask you to send a message to him in 
case he is not looking--I'm sure he is--but the thing that I 
asked you about the water bills, you know, that is insult to 
injury. You know, if I'm being poisoned----
    Mr. Creagh. Right.
    Mr. Cummings. --and I can't wash with the water. I can't 
drink the water, and then you are going to make me pay for the 
water? I mean, that doesn't make any sense. So I just want to 
throw that in. But again----
    Mr. Creagh. I will take that back.
    Mr. Cummings. --thank you all.
    And, Mr. Chairman, I am looking forward to our continued 
efforts. It is not about a gotcha. I swear to God, it's not. 
It's about what happened. You got to know what happened so that 
you can correct it, and hopefully so it doesn't happen again.
    Ms. Walters, thank you very much. Your children are in our 
prayers. You said something that--you said something about you 
did a reading and it was higher than, I guess, particles per 
billion--it was higher than hazardous waste. Is that what you 
said?
    Ms. Walters. Yes, the levels of lead in my water were 
higher than hazardous waste levels.
    Mr. Cummings. That's purely unacceptable.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlemen.
    Just to follow up on what Mr. Cummings was talking about, 
Mr. Edwards, these people at the Michigan Department of 
Environmental Quality, do you feel that they were misleading 
people? Were they providing false information? What were they 
doing, and who were they doing it to?
    Mr. Edwards. I think it probably started innocently. I 
think someone forgot to follow the law. But they ignored 
warning sign after warning sign. The GM fiasco, Ms. Walters' 
child, the hazardous waste levels of lead, and gradually, step 
by step, they just felt like they, you know, they were covering 
this up. There's no question about it. You read the emails, 
they were--they lied in writing to the EPA. And it was only 
after LeeAnne figured out that they were not using corrosion 
control that they started this new story that we don't know if 
we have to have corrosion control. So I think the written 
record is quite clear on this.
    Chairman Chaffetz. Well, they were telling that to the EPA. 
What about to the Governor's Office and other State officials?
    Mr. Edwards. It's very clear to me that they misled the 
epidemiologists who were looking at that. The very first thing 
they did was to reach out to the MDEQ employees and say: Is 
there something wrong with the water? And the talking points, 
the notes from that memo used by the epidemiologists, basically 
repeated one lie after another after another about the actual 
situation in Flint. And when you're a scientist and you have 
been misled so fundamentally by someone in a position of trust, 
that skews your interpretation.
    So I have criticized what the health department did and the 
fact that they never told the Governor about this spike in 
elevated lead that was occurring. And I have talked about their 
unethical behavior in the month of September when they refused 
to share data with me and Dr. Mona about the lead-poisoned 
children. But you have to--when you look at the ethics of this, 
you have to look at what they were told and put yourself in 
their position. And I fault them, but the blame lies with these 
three or four employee who were actively misleading everyone.
    And I go back to Mr. Walling, who took a lot of criticism 
and some of it very justifiable. But if you're a mayor of a 
town in Flint and you reach out to Susan Hedman, the top cop in 
the region and she tells you nothing is wrong and a few days 
later you go on television drinking the water to tell everyone 
it's safe, who is to blame for that? Certainly Mayor Walling 
has taken his share of the blame for being overly trusting of 
the top EPA cop in the region, apologizing for this memo, and 
not telling you that there is anything wrong going on in Flint. 
But the bulk of the blame for that particular episode has to 
lie with Susan Hedman.
    Chairman Chaffetz. And to my colleagues, you know, thinking 
about it, there's more than 2 million Federal employees. The 
overwhelming majority, they are good quality, hardworking 
patriotic people. I say that time and time again.
    Mr. Edwards. Absolutely.
    Chairman Chaffetz. But what we haven't done as a Congress 
with oversight of the administration--and, again, you can find 
examples on Democratic and Republican administrations. Okay, 
but we when we have these types of bad apples in place, they 
tend to rise to the surface. So much so that we had a hearing 
about this in July saying this is a problem. And nothing, but 
nothing was done about it. And it festered in other areas that 
rose to our level that it became so serious that we had a 
hearing. But it was, obviously, when you have that kind of 
approach, you see this happen time and time again.
    And so this has been a very, very valuable hearing. Ms. 
Walters, God bless you. I'm so sorry that you've had to go 
through this. I can't even begin to tell you how much we hope 
and pray for your family and for the thousands of other 
families that you represent. So you have had some sort of 
strength that you got somewhere. I believe in--it's not just a 
coincidence that you get that kind of strength that's 
representative and making the people of Michigan proud. So keep 
it up.
    Mr. Edwards, thank you for your good work. You have been 
tenacious on this. Thankful for Virginia Tech for funding you 
and allowing you to do this good work and being the kind of 
expert across the country and very helpful to this committee. 
We are very appreciative of that.
    Mr. Creagh, you didn't need this in your life. You have had 
a very strong career. You've served the State of Michigan 
honorably. I have heard praise on both sides of the aisle for 
what you're doing. You are in a very difficult spot. You are in 
a very difficult spot. And for your stepping up and doing this, 
somebody has got to do it. And somehow that mantle has fallen 
to you. We thank you for your participation and work that you 
do here.
    Mr. Beauvais, you seem like a very fine gentleman who cares 
deeply about not only the government, but you care about the 
country. You care about these people as well. My frustration is 
with the organization, the lack of accountability, the lack of 
followthrough. Somehow we have got to plow past the talking 
points and everything they try to train you to say when you 
come before Congress and just get to the truth and the naked 
reality of it. That's what I think most of the employees at the 
EPA want. It's what the Congress wants. We represent the 
people. You know, we represent the people of the United States. 
And so we--I'm glad you are in this position. I think you are 
part of the solution, not part of the problem. That's my 
experience. That's my starting point. I think all four of you 
are part of the solution, not part of the problem. But we have 
a problem, and we have got to clean it up.
    And I also want to--I appreciate and thank Mr. Kildee for 
his passion on this. He has been working on this for some time. 
And I'm glad that he was able to testify today.
    This committee stands adjourned.
    [Whereupon, at 12:52 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
           
                                 [all]
</pre></body></html>
